                                    Semiannual Report to Congress
                                   The Realities We Face:
                                  Continuity Amid Change
                                       April 1, 2004 thru September 30, 2004




www.socialsecurity.com/oig
      SSA OIG Pub. No. 85-007
      Published November 2004   Social Security Administration - Office of the Inspector General
                                                                                            Report Fraud
 Office of the Inspector General                                         The SSA OIG Fraud Hotline offers a means for you to provide
                                                                        information on suspected fraud, waste, and abuse. If you know of
Mission Statement                                                         current or potentially illegal or improper activities involving
By conducting independent and objective audits, evaluations, and          SSA programs or personnel, we encourage you to contact the
investigations, we improve the SSA programs and operations and                               SSA OIG Fraud Hotline.
protect them against fraud, waste, and abuse. We provide timely,
useful, and reliable information and advice to Administration
officials, Congress, and the public.
                                                                       Call              1-800-269-0271
                                                                       Write             Social Security Administration
                                                                                         Office of the Inspector General
Vision and Values                                                                        Attention: SSA Fraud Hotline
We are agents of positive change striving for continuous                                 P. O. Box 17768
improvement in SSA’s programs, operations, and management by                             Baltimore, MD 21235
proactively seeking new ways to prevent and deter fraud, waste, and
abuse. We are committed to integrity and to achieving excellence by    Fax               410-597-0118
supporting an environment that encourages employee development
and retention, and fosters diversity and innovation, while providing   Internet       www.socialsecurity.gov/oig
a valuable public service.

                                                                       To obtain additional copies of this report, visit our website,
                                                                                      www.socialsecurity.gov/oig
                                                                                         or call 410-965-3218
April 1, 2004 — September 30, 2004                SSA Office of the Inspector General



Message from the Inspector General
The Social Security Administration’s (SSA) Office of the Inspector General
(OIG) continues to serve SSA and the American people vigilantly. Our
charge is to protect SSA and its programs from fraud, waste, and abuse.
We conduct criminal investigations, audits, and legal analyses to help make
Social Security programs and operations more efficient, effective, and
secure. We also contribute to homeland security efforts cutting across the
Federal Government.

No program touches more lives than Social Security. Today SSA serves
over 50 million beneficiaries and manages annual expenditures of over
$500 billion. While SSA is consistently ranked among the best in Government
for service, the stakes are too high for either the Agency or OIG to rest on
its laurels. We at OIG serve as agents of positive change for SSA and the
American people, working to maintain and improve the Agency’s consistent
ranking among the best in Government.

This second Semiannual Report to the Congress for fiscal year (FY) 2004
focuses on our accomplishments for the period of April 1, 2004 through
September 30, 2004, and provides a summary of FY 2004 statistical
accomplishments. It delineates our mission, describes our significant
activities, explains our assessment of the top management issues facing
SSA, and summarizes our work on these challenges.

We are continuing to work as stewards of this sacred trust with SSA to
achieve measurably improved results, and to anticipate future challenges
as we achieve our own goals.


Sincerely,

S
Patrick P. O’Carroll, Jr.
Inspector General
               Semiannual Report to Congress                      April 1, 2004 — September 30, 2004



                      Executive Summary
                      We built upon our record of successes in FY 2004—combating fraud, waste
                      and abuse in SSA’s programs and operations, and providing strong support
                      to America’s homeland security with other Federal agencies.

                      In this reporting period, our investigators reported over $124 million in
                      investigative accomplishments with over $25 million in SSA recoveries,
                      restitution, ﬁnes, settlements, and judgments and over $98 million in
                      projected savings. As part of our civil monetary penalty (CMP) program, our
                      attorneys also reported over $200,000 in penalties and assessments. And
                      ﬁnally, our auditors issued 56 reports with recommendations identifying
                      nearly $1½ billion in questioned costs and nearly $350 million in Federal
                      funds that could be put to better use. We returned nearly $25 for every
                      dollar invested in our operations in FY 2004, based on our dollar savings
                      and appropriation of $87.6 million.


                      Signiﬁcant Activities
                      This section details our most important activities during this reporting period.
                      We continue making major strides to help SSA accomplish its service and
                      stewardship responsibilities, while we face the challenges and opportunities
                      of a leadership transition. This report highlights these accomplishments and
                      identiﬁes areas where improvement is necessary.

                      Homeland Security Efforts

                      The Social Security number (SSN) is no longer simply used to track workers’
                      earnings and pay social insurance beneﬁts. It is recognized as a widely-used
                      identiﬁer or a key to social, legal, and ﬁnancial assimilation into our Nation.
                      Protecting the SSN’s integrity is a critical part of homeland security efforts.

                      We have several initiatives under way to improve homeland security:

                        • We work with congressional committees to address the threats to SSN
                          integrity and advocate measures we believe can signiﬁcantly reduce
                          those threats. In FY 2004, OIG testiﬁed on homeland security and SSN
                          integrity issues before 4 congressional hearings.

                        • We participate in a range of anti-terrorism task forces, including
                          operations at critical infrastructure sites conducted across the
                          country.

                        • We established an SSN Integrity Protection Team to identify patterns
                          and trends to better target audit work, refer cases for investigation,
                          and ensure efﬁcient, effective liaison with other relevant public and
                          private sector entities.



page ii   •   Executive Summary
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



  • We work closely with Agency representatives as participants in SSA’s
    Enumeration Response Team (ERT) to recommend and develop
    initiatives to strengthen the integrity of the SSN and SSA’s enumeration
    process.

  • We conduct audits and make recommendations for areas in which SSA
    can further strengthen the integrity of the SSN.

  • We work with SSA to safeguard and protect Agency employees and
    facilities.

Cooperative Disability Investigations Program

We manage the Cooperative Disability Investigations (CDI) program in
cooperation with SSA to obtain evidence that can resolve questions of fraud
in SSA’s disability programs.

The Government Accountability Ofﬁce (GAO) acknowledged the CDI
program’s successes by noting that we have increased the level of resources
and staff devoted to investigating disability fraud and abuse. Our CDI teams
identify fraud and abuse before beneﬁts are approved and paid.

Eighteen units have been opened in 17 States since FY 1998. In FY 2004,
the CDI units saved SSA almost $133 million. SSA hopes to add more CDI
units in FY 2005, depending on available resources.

Civil Monetary Penalty Program

We administer the CMP enforcement statutes under a delegation of
authority from SSA’s Commissioner, which allows OIG to use CMPs against
certain violators of the Social Security Act. Our investigative work provides
an important contribution to these cases.

The enactment this year of the Social Security Protection Act of 2004 will
signiﬁcantly expand our ability to utilize this valuable tool against such
violators, including representative payees who misuse beneﬁts paid on
behalf of their clients.


Signiﬁcant Management Issues Facing SSA
This report describes our annual assessment of the most signiﬁcant
management issues facing SSA. This assessment is valuable in focusing
congressional attention on mission-critical management problems, and
serves as a catalyst for resolving signiﬁcant issues across the Agency.
Based on legislative mandates and our audit and investigative work, we
believe the most signiﬁcant management issues currently facing SSA are
those described below.



                                                                Executive Summary       •   page iii
               Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                      Issue 1: Improper Payments

                      Improper payments are payments that should not have been made or
                      were made for incorrect amounts. In FY 2004, SSA issued approximately
                      $523 billion in payments to over 50 million individuals. Even the slightest
                      error in the overall process can result in millions of dollars in overpayments
                      or underpayments. Working with SSA, we have made great strides in
                      combating this problem, but more needs to be done.

                      SSA and OIG are working to improve the Agency’s ability to prevent over-
                      and underpayments by obtaining beneﬁciary information from independent
                      sources sooner and/or using technology more effectively. The Agency is
                      continuing efforts to prevent payments after a beneﬁciary dies. Also, SSA
                      identiﬁes and prevents payments to beneﬁciaries who are no longer eligible
                      for disability beneﬁts.

                      Several FY 2004 reviews focused on improper payments undetected by SSA
                      processes. We have greatly reduced improper payments to prisoners and
                      Supplemental Security Income (SSI) payments to fugitive felons. However,
                      other improper payments—such as those related to Workers’ Compensation
                      (WC)—continue to diminish the Social Security trust funds. Passage of the
                      Social Security Protection Act of 2004 poses new challenges in preventing
                      and recovering improper payments, such as OASDI beneﬁts to fugitives.

                      Issue 2: Management of the Disability Process

                      Management of the disability process is another major management
                      challenge for SSA. This includes the Disability Insurance (DI) and SSI
                      programs, which provide payments to individuals based on disability. Our
                      concerns were echoed by GAO when it added Federal disability programs—
                      including SSA’s—to its 2003 high risk list.

                      The Commissioner’s long-term strategy for improving the Agency’s disability
                      process relies on a combination of process modiﬁcations and automation,
                      which SSA expects to shorten disability processing times. We will continue
                      to evaluate these initiatives to determine their effectiveness and report to
                      Congress on the Agency’s progress once data is available.

                      Issue 3: SSN Protection

                      The importance placed on SSNs and the magnitude of SSA’s enumeration
                      function provides a tempting motive to acquire SSNs fraudulently and use
                      them for illegal purposes. In FY 2004, SSA issued over 17.5 million original
                      and replacement SSN cards, and received approximately $545 billion in
                      employment taxes related to earnings under the SSNs it has issued.




page iv   •   Executive Summary
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



Protecting the SSN and properly posting the wages reported under each SSN
is critical to ensuring that eligible people receive their beneﬁts correctly.
Unfortunately, criminals can improperly obtain and misuse SSNs, causing
innocent individuals years of difﬁculty. SSN misuse also damages ﬁnancial
and commercial institutions, which ultimately pass costs on to consumers.
Worse yet, SSN misuse can threaten our homeland security by disguising a
dangerous felon or a would-be terrorist as a law-abiding citizen.

SSA has a duty to the American public to safeguard the integrity of the
enumeration process. Given the magnitude of SSN misuse, we believe SSA
must continue to employ and enhance effective front-end controls in issuing
SSNs. Likewise, additional techniques, such as data mining, biometrics, and
updated systems processes are critical in the ﬁght against SSN misuse. We
have made several recommendations and the Agency has taken steps to
improve procedures for ensuring SSN integrity and to strengthen its link in
the homeland security chain.

Issue 4: Critical Infrastructure Protection and Systems Security

The Government has a major responsibility to     protect public health and
safety. Dramatic and widespread harm would       result should its systems
be compromised. Therefore, it is imperative      that the Nation’s critical
information infrastructure, which is essential   to the operations of the
economy and Government, be protected.

SSA’s information security challenge is to understand and mitigate
system vulnerabilities. At SSA, this means ensuring its critical information
infrastructure, such as access to the Internet and the networks, is secure.
By improving systems security and controls, SSA will be able to use current
and future technology more effectively to fulﬁll the public’s needs. The
public will not use electronic access to SSA services if it does not believe
those systems are secure.

Issue 5: Internal Control Environment and Performance Measures

Internal control comprises the plans, methods, and procedures used to
meet missions, goals, and objectives. Internal controls help safeguard
assets and prevent and detect errors and fraud. Assessing the internal
control environment is important since internal control is a critical part of
performance-based management. The Chief Financial Ofﬁcer Act of 1990
(CFO Act), the Government Management Reform Act of 1994, and the
Government Performance and Results Act (GPRA) were passed to create an
environment of greater accountability within Federal agencies.

In accordance with GPRA, SSA sets forth its mission and strategic goals in
strategic plans, establishes yearly targets in its annual performance plan,



                                                                Executive Summary       •   page v
               Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                      and reports on its performance annually. Each year, we conduct audits to
                      assess the reliability of SSA’s performance data and evaluate the extent to
                      which SSA’s performance plan describes its planned and actual performance
                      meaningfully.

                      Issue 6: Service Delivery

                      Service delivery to the American people poses a signiﬁcant challenge that
                      SSA is compelled to address. The Agency’s goal of “service” encompasses
                      traditional and electronic services to applicants for beneﬁts, beneﬁciaries,
                      and the general public.

                      We consider electronic service delivery and the integrity of the
                      representative payee process to be the two most signiﬁcant concerns
                      related to SSA’s Service Delivery. Within the next 5 years, SSA expects to
                      provide E-government services that will give citizens, businesses and other
                      Government agencies the ability to easily and securely transact most of
                      their business with SSA electronically. The Agency will need to ensure that
                      its information systems and networks are accurate, reliable and secure. We
                      will continue to review the Agency’s progress.

                      Another area of concern is the Representative Payment Program.
                      SSA reported that there are about 5.4 million representatives payees who
                      manage about $44.8 billion in beneﬁts for about 6.9 million beneﬁciaries.
                      SSA must provide appropriate safeguards, and we must monitor and
                      enforce them.

                      We provided information to Congress during its development of the Social
                      Security Protection Act of 2004, which will signiﬁcantly strengthen the
                      Representative Payee Program and our ability to deal with dishonest
                      representative payees. Its provisions allow imposing CMPs against
                      representative payees who misuse beneﬁts paid on behalf of their clients,
                      and bar fugitive felons from serving as representative payees.


                      We Face New and Old Challenges Today
                      The challenges of change and continuity in 2004 are numerous. We are
                      pressed by new legislative mandates, growing demands for services,
                      and increasing budget constraints across the Federal Government.
                      Notwithstanding these challenges, we will step forward aggressively and
                      work with SSA to combat fraud, waste and abuse, as well as to support
                      America’s homeland security.




page vi   •   Executive Summary
April 1, 2004 — September 30, 2004   SSA Ofﬁce of the Inspector General




                                                 Executive Summary        •   page vii
Semiannual Report to Congress   April 1, 2004 — September 30, 2004




            The Realities We Face:
           Continuity Amid Change
April 1, 2004 — September 30, 2004                               SSA Ofﬁce of the Inspector General



Contents
Message from the Inspector General ............................................. i

Executive Summary....................................................................... ii

Introduction to Our Organization .................................................. 1

Signiﬁcant Activities...................................................................... 3

      Homeland Security Efforts.......................................................... 3

      Investigative Data..................................................................... 7

Signiﬁcant Management Issues Facing SSA................................. 10

      Issue 1: Improper Payments .....................................................11

      Issue 2: Management of the Disability Process.............................21

      Issue 3: Social Security Number Protection ................................30

      Issue 4: Critical Infrastructure Protection and Systems Security .....42

      Issue 5: Internal Control Environment and Performance Measures .48

      Issue 6: Service Delivery .........................................................53

Civil Monetary Penalty and SAUSA Programs............................... 61

      False Statements Under Section 1129.........................................61

      Misleading Advertising Under Section 1140..................................62

      Partnerships with U.S. Attorneys ................................................64

Appendices.................................................................................. 67

      Appendix A .............................................................................69

      Appendix B .............................................................................71

      Appendix C .............................................................................78

      Appendix D .............................................................................81

      Appendix E .............................................................................83

      Appendix F..............................................................................84

      Appendix G .............................................................................90

      Appendix H .............................................................................91

      Appendix I ..............................................................................92
Semiannual Report to Congress   April 1, 2004 — September 30, 2004
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



Introduction to Our Organization
The Ofﬁce of the Inspector General (OIG) is comprised of our Ofﬁce of
Investigations (OI), Ofﬁce of Audit (OA), Ofﬁce of the Chief Counsel to
the Inspector General (OCCIG), and Ofﬁce of Executive Operations (OEO).
To ensure compliance with policies and procedures, internal controls,
and professional standards, we also have a comprehensive Professional
Responsibility and Quality Assurance program.


Ofﬁce of Investigations
OI conducts and coordinates investigative activity related to fraud, waste,
abuse, and mismanagement in SSA programs and operations. This includes
wrongdoing by applicants, beneﬁciaries, contractors, third parties, or SSA
employees performing their ofﬁcial duties. This ofﬁce serves as OIG liaison to
the Department of Justice (DOJ) on all matters relating to the investigations
of SSA programs and personnel. OI also conducts joint investigations with
other Federal, State, and local law enforcement agencies.


Ofﬁce of Audit
OA conducts and/or supervises ﬁnancial and performance audits of SSA
programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efﬁciently. Financial audits assess
whether SSA’s ﬁnancial statements fairly present SSA’s ﬁnancial position,
results of operations, and cash ﬂow. Performance audits review the
economy, efﬁciency, and effectiveness of SSA’s programs and operations.
OA also conducts short-term management and program evaluations and
projects on issues of concern to SSA, Congress, and the general public.


Ofﬁce of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various
matters, including statutes, regulations, legislation, and policy directives.
OCCIG also advises the IG on investigative procedures and techniques,
as well as on legal implications and conclusions to be drawn from audit
and investigative material. Finally, OCCIG administers the civil monetary
penalty (CMP) program.


Ofﬁce of Executive Operations
OEO supports OIG by providing information resource management and
systems security. OEO also coordinates OIG’s budget, procurement,
telecommunications, facilities, and human resources. In addition, OEO is
the focal point for OIG’s strategic planning function and the development
and implementation of performance measures required by GPRA.


                                                                                         page 1
               Semiannual Report to Congress   April 1, 2004 — September 30, 2004




page 2   •   Signiﬁcant Activities
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



Signiﬁcant Activities
In FY 2004 we made major strides in helping the Social Security
Administration (SSA) accomplish its service and stewardship responsibilities.
This report highlights these accomplishments and identiﬁes areas where
SSA can improve further. Since SSA’s Ofﬁce of the Inspector General (OIG)
was created in 1995, we have focused on a number of signiﬁcant issues in
the ﬁght against fraud, waste, and abuse at SSA. We also play an essential
role in protecting our Nation’s homeland security along with other Federal
agencies.

The following section details several of the most signiﬁcant activities in this
reporting period, including:

  • Homeland Security Efforts

  • Investigative Data


Homeland Security Efforts
The SSN is no longer simply used to track workers’ earnings and pay social
insurance beneﬁts. It has become recognized as a national identiﬁer, a key
to social, legal, and ﬁnancial assimilation into our Nation. Protecting the
SSN’s integrity is a critical part of our homeland security.

Our ongoing involvement in homeland security efforts that cut across the
Federal Government is required by the role the SSN plays in establishing
false identities and facilitating ﬁnancial crimes that can be used to ﬁnance
terrorism. Our central functions in this area are to protect the integrity of
the enumeration process and to ensure the accuracy of SSA’s records.

The dramatic growth in computer interconnectivity carries with it risks that
operations can be disrupted, sensitive data can be compromised, and key
processes can be interrupted. People and organizations have more tools
than ever to disrupt or sabotage important operations. Our role is vitally
important to homeland security in assisting SSA to protect its critical
infrastructure and systems security.

With that in mind, we have several initiatives under way to improve
homeland security:

  • We work with congressional committees to address the threats to SSN
    integrity and advocate measures we believe can reduce those threats
    signiﬁcantly.

  • We participate in a range of anti-terrorism task forces, including
    operations conducted at critical infrastructure sites across the
    country.



                                                                  Signiﬁcant Activities   •   page 3
               Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                         • We established an SSN Integrity Protection Team to identify patterns
                           and trends to better target audit work, refer cases for investigation,
                           and ensure efﬁcient, effective liaison with other relevant public and
                           private sector entities.

                         • We work closely with Agency representatives as participants in SSA’s
                           Enumeration Response Team (ERT) to recommend and develop
                           initiatives to strengthen SSN integrity and the enumeration process.

                         • We conduct audits and report on areas where SSA can further
                           strengthen the integrity of the SSN.

                      Working With Congress
                      We continue to provide Congress with our assessment of developing threats
                      to the SSN’s integrity. Our body of audit and investigative work permits us
                      to give Congress our evaluation of suggested legislative changes and new
                      techniques to improve SSN security and to decrease identity theft crimes.

                      In FY 2004, OIG testiﬁed on homeland security and SSN integrity issues
                                     before 4 congressional hearings. We have stressed the
                                     importance of interagency data veriﬁcation and data-
                                     matching agreements between Federal and State agencies in
                                     our testimony and other responses to Congress. While SSA
                                     issues the SSN, we all share responsibility for protecting its
                                     integrity. SSA has come very far in its efforts to protect the
                                     SSN and is willing to do more, but other Federal, State and
                                     local jurisdictions, as well as the private sector, must each do
                      their part, too. With everyone’s participation, we can protect the SSN and
                      ultimately our homeland.

                      Conducting Audits

                      We have performed several important audits to strengthen SSN integrity,
                      a vital component of homeland security. The reviews with the most direct
                      bearing on homeland security focused on SSA enumeration procedures in
                      general and on enumeration issues involving foreign students. We followed
                      up a December 2003 review of SSA’s procedures for enumerating foreign
                      students with a report on universities’ issuance of temporary SSNs to such
                      students. We identiﬁed numerous instances of universities referring to
                      temporary 9-digit identiﬁcation numbers they issued to foreign students
                      as temporary SSNs, which could easily create SSN integrity issues. SSA
                      shared our concern and initiated a national review to identify and educate
                      universities engaging in this practice, but we found the risk remained.

                      We also followed up on an August 2002 audit to determine how often
                      SSA’s records show that more than one individual has been provided with


page 4   •   Signiﬁcant Activities
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



the same SSN. We believe SSA’s current enumeration procedures should
minimize future occurrences of individuals sharing the same SSN. However,
past enumeration problems may still lead to payment errors in the future.
SSA agreed to take appropriate action.

In 3 parallel audits, we evaluated SSA’s compliance with policies and
procedures when processing non-citizen SSN applications. Beginning
in July 2002, SSA implemented a policy requiring ﬁeld ofﬁce personnel
to independently verify the authenticity of all non-citizen evidentiary
documents with the issuing or responsible agency. However, these policies
and procedures can be effective only if personnel processing SSN applications
comply with the controls. Based on our reviews of SSN applications
processed by SSA ﬁeld ofﬁces, foreign service posts and SSA’s Ofﬁce of
International Operations, we estimate that over 30 percent contained some
compliance errors. Additionally, our review of SSA’s Enumeration Center in
Brooklyn, New York revealed a non-compliance rate of 15 percent for SSN
applications processed.

We also evaluated SSA’s internal safeguards to protect the conﬁdentiality
of its employees’ SSNs. SSA agreed with our recommendations, noting
that Executive Order 9397 and 1961 Civil Service Commission directives
mandating the use of SSNs as the identiﬁer of Federal employees require
the Agency to use SSNs as the employee identifying number.

Our audit work involving SSN integrity and protection is discussed at greater
length under Signiﬁcant Management Issues Facing SSA.

The following cases illustrate our efforts against terrorism in this reporting
period:

Investigation: Alien Smuggler, SSA Employee Jailed in Card Fraud

Our Atlanta Field Division, along with DHS Immigration and Customs
Enforcement (ICE), Department of Labor OIG, and the United States Postal
Inspection Service (USPIS), investigated an alien smuggling operation
that resulted in 28 people being indicted by a Federal Grand Jury. Our
investigators found that smugglers charging as much as $1,500 were
sending undocumented aliens to an SSA employee to process applications
for illegal Social Security cards. She received up to $2,000 per week and
other inducements for helping funnel more than 2,000 Social Security cards
to illegal aliens for over 3 years. The SSA employee lost her job and was
sentenced to 71 months in prison. The man convicted of bribing her was
sentenced to 46 months’ incarceration, ordered to pay a $300 ﬁne, and
ordered to be deported after the completion of his sentence. Many of the
other defendants indicted for this Social Security card scheme have been
deported.



                                                                 Signiﬁcant Activities   •   page 5
               Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                      Investigation: Counter-Terrorist Probe Finds Bogus Documents
                      U.S. Customs agents detained a resident of the Kyrgyz Republic found
                      carrying what appeared to be $610 million in suspicious letters of credit
                      during a routine check at Detroit Metro Airport. Our Chicago Field Division,
                      working jointly with the U.S. State Department, and the U.S. Attorney’s
                      Ofﬁce Counter Terrorism Unit in Detroit, determined the letters of credit
                      were bogus documents, and charged him with possession of a fraudulently
                      obtained U.S. visa and a Social Security card issued under the assumed
                      identity of another person. He was sentenced to 6 months’ incarceration.

                      Investigation: Fraudulent Documents Bring Prison, Deportation

                      Our Boston Field Division and ICE investigated a Massachusetts man for
                      fraudulent document sales. During the course of this investigation, our
                      agents monitored the sale of 16 sets of counterfeit Social Security cards
                      and Alien Registration cards by the suspect and his coconspirators to a
                      conﬁdential informant. He was arrested without incident and pleaded guilty
                      to a 5-count indictment charging him with transferring false ID documents
                      and aiding and abetting. He was sentenced to 36 months in prison, and will
                      be returned to DHS for deportation after serving his sentence.

                      Investigation: Task Force Cracks Document Ring in Virginia

                      Our Philadelphia Field Division participated with ICE, the Federal Bureau
                      of Investigation (FBI), USPIS and local police in a 9-month investigation
                                       into a fraudulent document ring in Virginia. Task force
                                       investigators determined the ring produced counterfeit
                                       Social Security cards, green cards, and work permits for
                                       sale to illegal immigrants. A task force operation targeting
                                       a fraudulent document mill arrested 7 ring members for
                                       counterfeiting documents and immigration violations.
                                       Two counterfeiters have been sentenced to 27 months’
                                       incarceration, and one will forfeit $15,000. Five others
                                       were arrested for immigration violations. ICE is working on
                      deportation proceedings for all of them.

                      Investigation: Repeated Fraud Nets Sentence, Deportation

                      Our Chicago Field Division and ICE investigated a man who failed to appear
                      for sentencing for tax evasion. A citizen of Nigeria, he claimed he was
                      born in the United States and provided a fraudulently-obtained SSN. Our
                      investigators ascertained he obtained and used a second SSN fraudulently.
                      He was given 152 months in prison. After serving his sentence he will be
                      returned to DHS for deportation.




page 6   •   Signiﬁcant Activities
April 1, 2004 — September 30, 2004                   SSA Ofﬁce of the Inspector General



Investigative Data
Our Ofﬁce of Investigations (OI) is the enforcement arm of SSA OIG.
In this reporting period, our investigators closed nearly 4,500 criminal
investigations, resulting in nearly 2,000 arrests and indictments and over
1,300 convictions, CMPs, and apprehensions of illegal aliens. They also
reported over $124 million in investigative accomplishments with over $25
million in SSA recoveries, restitution, ﬁnes, settlements, and judgments
and over $98 million in projected savings from investigations resulting in
suspension or termination of beneﬁts.

For    example,    the   Cooperative    Disability
Investigations (CDI) program obtained evidence
that resolved questions of fraud in SSA disability
programs, saving SSA over $69 million.
Data provided by our Fugitive Felon Program
contributed to the arrest of 2,550 fugitives in
this reporting period. Our CMP program, which
OCCIG administers using OI’s investigative
work, reported over $200,000 in penalties and
assessments.

In the same period, we received over
37,000 allegations from various sources, cutting
across SSA programs. More than half of these
were received by our Allegation Management Division, which operates our
Fraud Hotline.

The following tables represent the collective efforts of our OI Headquarters
and Field Divisions, including our SSA OIG Fraud Hotline. In addition, we
worked on multi-agency investigations that resulted in over $127 million
in savings, restitution and recoveries for those agencies. Non-SSA monies
claimed for joint investigations are not included in the following charts.




                                                                  Signiﬁcant Activities   •   page 7
                    Semiannual Report to Congress                    April 1, 2004 — September 30, 2004




                                             SSA Funds Reported


                                          October 1, 2003 -                 April 1, 2004 -
                                           March 31, 2004                 September 30, 2004

Scheduled Recoveries                                  $20,044,724                          $12,661,929

Fines                                                   $315,517                              $255,334

Settlements/Judgments                                   $578,509                              $522,612

Restitution                                           $12,075,852                          $12,233,800

Estimated Savings                                    $103,805,060                          $98,410,866

TOTALS                                              $136,819,662                        $124,084,541

FY 2004 TOTAL                                                 $260,904,203




                                             Investigative Results


                                      October 1, 2003 -         April 1, 2004 -           FY 2004
                                       March 31, 2004         September 30, 2004        Grand Totals

 Allegations Received                               37,524                   37,549            75,073

 Cases Opened                                        4,774                    4,535             9,309

 Cases Closed                                        5,093                    4,462             9,555

 Arrests/Indictments                                 2,293                    1,947             4,240

 Total Judicial Actions                              1,428                    1,325             2,753

 Criminal Convictions                                1,214                    1,114              2,328

 Civil/CMP                                              43                       22                 65

 Illegal Alien Apprehensions                           171                      189                360




  page 8      •   Signiﬁcant Activities
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General




                             Allegations Received by Category


                              October 1, 2003 -        April 1, 2004 -             FY 2004
                               March 31, 2004        September 30, 2004          Grand Totals

SSN                                        5,070                       4,419                9,489

SSI Disability                           17,251                       16,147            33,398

Disability Insurance                     10,866                       12,534            23,400

Old Age and Survivors
                                           2,571                       2,703                5,274
Insurance

SSI Aged                                    219                          262                 481

Employee                                    353                          569                 922

Other                                      1,194                         915                2,109

TOTALS                                   37,524                      37,549             75,073




                               Allegations Received by Source


                              October 1, 2003 -        April 1, 2004 -             FY 2004
                               March 31, 2004        September 30, 2004          Grand Totals

Private Citizens                           7,586                       9,378            16,964

Anonymous                                  9,691                       9,869            19,560

SSA Employees                              7,678                       8,101            15,779

Law Enforcement                          11,479                        8,725            20,204

Public Agencies                             457                          871                1,328

Beneﬁciaries                                628                          598                1,226

Other                                         5                            7                   12

TOTALS                                   37,524                      37,549             75,073




                                                                Signiﬁcant Activities   •    page 9
              Semiannual Report to Congress                   April 1, 2004 — September 30, 2004



                     Signiﬁcant Management Issues Facing SSA
                     Every year we assess the most signiﬁcant management issues facing SSA.
                     This process is valuable in focusing congressional attention on mission-
                     critical management problems and serves as a catalyst for resolving
                     signiﬁcant issues across the Agency. Based on legislative mandates and our
                     audit and investigative work, we believe the most signiﬁcant management
                     issues currently facing SSA are:

                       1. Improper Payments

                       2. Management of the Disability Process

                       3. Social Security Number Protection

                       4. Critical Infrastructure Protection and Systems Security

                       5. Internal Control Environment and Performance Measures

                       6. Service Delivery

                     We have discussed these issues with SSA and acknowledge that the Agency
                     has made progress in these areas. The following section discusses each
                     of these critical management issues, as well as our related audit and
                     investigative work for this reporting period.




page 10   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



Issue 1: Improper Payments
SSA issues beneﬁt payments under the Old-Age, Survivors and Disability
Insurance (OASDI) and SSI programs. Since SSA is responsible for issuing
timely beneﬁt payments to about 50 million individuals, even the slightest
error in the overall process can result in millions of dollars in over-
or underpayments.

Improper payments are deﬁned as payments that should not have been
made or were made for incorrect amounts. Examples of improper payments
include inadvertent errors, payments for unsupported or inadequately
supported claims, or payments to ineligible beneﬁciaries. Furthermore, the
risk of improper payments increases in programs with

  • A signiﬁcant volume of transactions.

  • Complex criteria for computing payments.

  • An overemphasis on expediting payments.

The President and Congress have expressed interest in measuring the
universe of improper payments within the Government. In August 2001,
the Ofﬁce of Management and Budget (OMB) published the FY 2002
President’s Management Agenda (PMA), which included a Government-
wide initiative for improving ﬁnancial performance. In November 2002,
the Improper Payments Information Act of 2002 was enacted, and OMB
issued guidance in May 2003 on implementing this law.

Patrick P. O’Carroll, Jr. testiﬁed on May 20, 2004 before a House Committee
on Ways and Means Subcommittee on Human Resources hearing on fraud
and waste in the SSI program. He discussed our ofﬁce’s evaluation of
several important actions the Agency has taken to meet the challenge of
strengthening SSI.

Under the Improper Payments Information Act, agencies that administer
programs where the risk of improper payments is signiﬁcant must estimate
their annual amount of improper payments and report this information
in their Annual Performance and Accountability Reports. OMB works with
each agency to establish goals for reducing improper payments for each
program.

SSA and OIG have had discussions on such issues as detected versus
undetected improper payments and avoidable versus unavoidable
overpayments that are outside the Agency’s control and a cost of doing
business. In August 2003, OMB issued speciﬁc guidance to SSA to only
include avoidable overpayments in its improper payment estimate because
these payments could be reduced through changes in administrative actions.




                                                                Management Issues • page 11
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     Unavoidable overpayments that result from legal or policy requirements are
                     not included in SSA’s improper payment estimate.

                     SSA has been working to improve its ability to prevent over-and
                     underpayments by obtaining beneﬁciary information from independent
                     sources sooner and/or using technology more effectively. For example,
                     the Agency is continuing its efforts to prevent payments after a beneﬁciary
                     dies through the use of Electronic Death Registration information. Also,
                     the Agency’s CDR process identiﬁes and prevents payments to beneﬁciaries
                     who are no longer eligible for disability beneﬁts. Additionally, SSA has
                     increased its efforts to identify replacement check fraud and to recover the
                     overpayments that result from a beneﬁciary cashing 2 checks for the same
                     month. SSA reports that it has developed and pursued additional policies
                     and procedures based on “best practices” to address the replacement check
                     fraud problem. Further, SSA reported that from April 1, 2003 to March
                     31, 2004, the number of replacement check fraud cases has been reduced
                     overall by 7.3 percent from the period of March 2002 to March 2004.

                     In FY 2004, we focused on improper payments that go undetected by SSA’s
                     normal processes. For instance, in one review of disabled beneﬁciaries
                     who work, we found that SSA had assessed overpayments for numerous
                     individuals. However, we estimated the Agency did not detect overpayments
                     to several thousand beneﬁciaries. SSA is implementing eWork, a new
                     initiative to strengthen controls in this area.

                     Working with SSA, we have made great strides in reducing beneﬁt payments
                     to prisoners and SSI payments to fugitive felons, and these efforts
                     continue. However, our work has shown that improper payments—such
                     as those related to Workers’ Compensation (WC)—continue to diminish
                     the Social Security trust funds. Additionally, with the passage of the
                     Social Security Protection Act of 2004, SSA faces new challenges in
                     preventing and recovering improper payments, such as OASDI beneﬁts to
                     fugitives.

                     Our audit work on improper payments in this reporting period has included
                     the following.

                     Disabled Title II Beneﬁciaries with Earnings Reported on the
                     Master Earnings File

                     Our objective was to determine whether SSA evaluated earnings reported
                     to the Master Earnings File (MEF) for disabled individuals receiving beneﬁts
                     under Title II of the Social Security Act.

                     An individual is considered disabled if he or she is unable to engage in any
                     substantial gainful activity (SGA). Generally, individuals receiving disability
                     beneﬁts may test their ability to return to work during a 9-month trial


page 12   •   Management Issues
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



work period. After the trial work period and a three month grace period
are completed, individuals may not receive beneﬁts for any months during
which they engage in SGA.

Although disabled Title II beneﬁciaries are required to report work activity,
individuals often fail to report their earnings. Consequently, SSA compares
earnings reported on the MEF to the beneﬁt rolls. This enforcement process
alerts the Agency to beneﬁciaries with potentially unevaluated substantial
earnings after the individuals’ disabilities began. SSA conducts medical
or work-related CDRs to determine whether beneﬁciaries continue to be
disabled and entitled to beneﬁts.

SSA evaluated the earnings reported on the MEF for some beneﬁciaries
receiving beneﬁts as of March 2002. However, we found that the Agency
did not evaluate a substantial portion of the earnings. Based on the results
of our sample, we estimate that approximately 171,620 beneﬁciaries
were overpaid $3.15 billion in disability beneﬁts because of work activity.
Further, we estimate that SSA had identiﬁed $1.78 billion in overpayments
for about 117,320 beneﬁciaries. However, we estimate another $1.37 billion
in overpayments to approximately 63,000 beneﬁciaries went undetected by
the Agency.

Additionally, we estimate that about 39,100 beneﬁciaries (of the
63,000 beneﬁciaries described above) were actually no longer entitled
to beneﬁts because of their substantial work. SSA was unaware that
approximately 34,760 disabled beneﬁciaries (of about 245,480 beneﬁciaries)
engaged in trial work. Because a signiﬁcant amount of Title II funds have
been overpaid, we believe additional attention should be devoted to this
important workload. We recommended that SSA:

  • Review past cases where signiﬁcant earnings are present on the MEF
    and no determination has been made regarding trial work and/or
    SGA.

  • Ensure that future earnings enforcements are adequately controlled by
    management and resolved in a timely manner.

  • Ensure that earnings reported on the MEF or disclosed on beneﬁciary-
    completed forms are evaluated when medical CDRs are performed or
    mailer CDR forms are received.

  • Ensure that earnings resulting in beneﬁt increases are evaluated to
    determine whether trial work activity and/or SGA were performed.

The Agency agreed with our recommendations.




                                                                 Management Issues • page 13
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     SSI Overpayments

                     Our objective for this audit was to assess SSA’s efforts to identify, prevent,
                     and recover SSI overpayments.

                     Title XVI of the Social Security Act established the SSI program in 1972 as
                     a nationwide Federal cash assistance program administered by SSA that
                     provides a minimum level of income to ﬁnancially needy individuals who are
                     aged, blind or disabled. SSA relies heavily on recipient self-disclosure of all
                     ﬁnancial resources—as well as computer matching with other Federal and
                     State agencies—to ensure payment accuracy. Since individuals’ income,
                     resources and living arrangements may change often, the SSI program is
                     prone to overpayments.

                     According to SSA, between FY 1996 and FY 2002, $11.6 billion in
                     SSI overpayments was subject to recovery efforts. Of this amount, SSA
                     collected $4.5 billion, deemed $2.3 billion uncollectible, waived $1.0 billion,
                     and continued to pursue recovery of $3.8 billion at the end of FY 2002.

                     To strengthen SSA’s overpayment recovery efforts, additional collection
                     tools were authorized through the Foster Care Independence Act of 1999.
                     The Agency is considering or developing the tools authorized through this
                     legislation that have not yet been implemented, such as Federal salary offset,
                     charging interest, and using private collection agencies. These collection
                     tools may assist SSA in reducing overpayments in the SSI program—such as
                     the $71.5 million we estimated the Agency was unsuccessful in recovering
                     from fugitives based on a September 2003 OIG audit.

                     We did note that SSA has made signiﬁcant efforts to identify, prevent, and
                     recover SSI overpayments over the past several years. To assist the Agency
                     in achieving its strategic objective of improving debt management, we
                     recommended that SSA continue to evaluate the recovery tools that have
                     not yet been implemented, but which were authorized through legislation.

                     SSA agreed with our recommendation.

                     Payments to Student Beneﬁciaries Beyond the Maximum Age of
                     Entitlement
                     Our objective was to determine the effectiveness of SSA’s controls to detect
                     and prevent payments to student beneﬁciaries beyond the maximum age
                     of entitlement.

                     From September 2001 to August 2002, SSA disbursed 1 or more beneﬁt
                     payments to 258,530 student beneﬁciaries. Of this amount, we found that
                     4,284 students (1.7 percent) were over 19 years and 2 months. Based on a
                     random sample of 100 students over the age of 19 years and 2 months who
                     were in terminated pay status, we found the Agency disbursed $110,797


page 14   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



in incorrect payments to 70 students and $5,435 in unsupported payments
(i.e. SSA had not retained sufﬁcient information-either in paper or electronic
form-to support its basis for awarding beneﬁts) to 7 students. Projecting
these results to the population of 4,056 students, we estimated that SSA
disbursed about $4.5 million in incorrect payments to 2,839 students and
$0.2 million in unsupported payments to 284 students. During the audit,
we referred an additional 228 students in current pay status or beyond their
end of school year to the Agency for corrective action. As of December 2003,
SSA established about $1.2 million in overpayments for these students.

During the audit period, the Agency was in the process of redesigning its
automated system for student entitlement. SSA has incorporated many
systems modiﬁcations into Release 3.0 of its Title II Redesign project,
which was implemented in June 2004. While we acknowledge that these
systems modiﬁcations should reduce the potential for payments beyond the
maximum age of entitlement, we believe additional actions are necessary to
strengthen program integrity and deter fraud, waste, and abuse.

We recommended that the Agency:

  • Take corrective action for the incorrect and unsupported payments
    identiﬁed by our audit.

  • Revise the form to request school ofﬁcials to identify and certify the
    operating basis of the school.

  • Ensure documentation is retained to support payments to students.

SSA agreed with all our recommendations.

Overpayments in the OASDI Program

Our objective was to assess SSA’s efforts to identify, prevent, and recover
OASDI overpayments.

According to SSA’s records, between FYs 1996 and 2002, $14 billion in
OASDI overpayments was subject to recovery efforts. Of that amount, the
Agency collected $8.1 billion, deemed $0.7 billion uncollectible, waived
$1.4 billion, and continued to pursue recovery of $3.8 billion at the end of
FY 2002.

Further, additional tools were authorized through the Social Security
Domestic Employment Reform Act of 1994 and the Debt Collection
Improvement Act of 1996 that may strengthen SSA’s ability to recover
overpayments. While we acknowledge that the Agency is considering or
developing the tools that have been authorized through legislation, it has
not yet implemented such tools as Federal salary offset, charging interest,
and using private collection agencies.



                                                                  Management Issues • page 15
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                     SSA has made signiﬁcant efforts to identify, prevent, and recover OASDI
                     overpayments over the past several years. To assist the Agency in achieving
                     its strategic objective of improving debt management, we recommend
                     that SSA continue to evaluate the recovery tools that have not yet been
                     implemented, but which were authorized through legislation.

                     SSA agreed with our recommendation.


                     Investigative Project: Replacement Check Fraud
                     Some people receiving Social Security payments attempt to cash their
                     Social Security checks, and then ask for replacement checks to be issued,
                     falsely claiming they never received the original checks. SSA has revised its
                     procedures to improve controls over replacement checks and its recovery of
                     related overpayments. We have recommended additional actions be taken
                     to deter people from cashing both original and replacement checks in the
                     same month. The Agency needs to improve its monitoring of replacement
                     check requests and its overpayment recovery actions. SSA also needs to
                     implement more forceful deterrents, such as sanctions for replacement
                     check abusers. We are continuing our aggressive replacement check fraud
                     project, resulting in prosecution of numerous cases with a signiﬁcant fraud
                     loss to the Agency.

                     The following are examples of our successful replacement check fraud
                     investigations during this reporting period:

                     Investigation: Operation Payback Nabs Dishonest SSI Recipient

                     As part of our Batavia, NY replacement check fraud project, Operation
                     Payback, our New York Field Division investigated a suspicious SSI recipient.
                     Our investigators determined that he made false reports to the Agency that
                     he had not received 9 of his original SSI checks. Replacement checks were
                     issued and he had cashed them. He pleaded guilty to theft of Government
                     funds, for which he was sentenced to 9 months in prison and ordered to pay
                     SSA restitution of $4,853.

                     Investigation: Buffalo Woman Gets 30 Days’ Incarceration

                     A Buffalo woman reported that she had not received 4 SSI checks. Our New
                     York Field Division investigators determined she cashed 4 duplicate checks
                     totaling $2,372 after cashing the original checks and having replacements
                     issued. SSA recovered $2,111 by withholding part of her monthly
                     SSI check. She was ordered to pay restitution of the remaining $261 to SSA
                     and sentenced to 30 days’ incarceration.




page 16   •   Management Issues
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



Investigation: Niagara Falls Man Pays for Check Fraud

Our New York Field Division also investigated a Niagara Falls man who cashed
6 duplicate SSI checks totaling $2,793 between August 1999 and December
2001. The man had falsely reported to SSA that he had not received his
original SSI checks, though he had already cashed them. Pleading guilty to
a misdemeanor charge for theft of Government funds, he was sentenced to
3 years’ supervised probation, 2 months’ home conﬁnement, 50 hours of
community service, and ordered to pay restitution of $2,793 to SSA.


Investigative Project: Payments to Deceased Persons
In conjunction with SSA, we are currently conducting aggressive
national operations to stop erroneous payments to deceased individuals.
This includes front-end detection of such payments and controls to prevent
them, as well as detailed investigations to locate wrongdoers when the
system breaks down. We believe that paying the right person the right
amount of beneﬁts is paramount. Payments made to deceased individuals
undermine public trust and conﬁdence in SSA’s programs.

The following are examples of our successful investigations to halt payments
to deceased beneﬁciaries in this reporting period:

Investigation: Landlord Steals Beneﬁts for 19 Years

Our New York Field Division investigated retirement insurance beneﬁts paid
to a deceased beneﬁciary, and determined that the beneﬁciary’s landlord
had assumed the dead tenant’s identity. The landlord accessed her bank
account and applied for numerous credit cards over a 19-year period.
The landlord was sentenced to 18 months in prison and ordered to pay
restitution of $165,944 to SSA.

Investigation: Texas Women Cash Dead Woman’s Checks

A Houston Social Security Ofﬁce reported that a beneﬁciary had died in 1983
but beneﬁts checks continued to be released to her. Our Dallas Field Division
investigators identiﬁed two Texas women who forged and negotiated the
checks released to the dead woman. The woman who posed as the deceased
beneﬁciary to cash the checks received 15 months’ incarceration and was
ordered to pay restitution of $36,925 to SSA. Her colleague was given
5 months in prison and ordered to pay SSA restitution of $36,925.

Investigation: Son Takes Deceased Mother’s Beneﬁts

Our Los Angeles Field Division investigators ascertained that a Phoenix
woman who died in 1988 continued to receive SSA retirement beneﬁt
checks mailed to her residence until 2002. Her son lived at this residence.


                                                                 Management Issues • page 17
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                     Further investigation disclosed he cashed her SSA and Civil Service Fund
                     annuity checks, and deposited the money ﬁrst into a joint account he and
                     his mother held, then transferred funds into his own bank account. The total
                     fraud loss was $153,022 to SSA and the Ofﬁce of Personnel Management.
                     He was sentenced to 6 months in prison, and ordered to pay restitution of
                     $88,583 to SSA.

                     Investigation: OIG Project Identiﬁes Daughter’s Theft

                     Our national project to identify currently paid beneﬁciaries whose deaths
                     are posted on their Agency records identiﬁed a North Carolina woman who
                     died in 1982. Atlanta Field Division agents found that her daughter cashed
                     the checks mailed after the mother’s death. We directed SSA to stop making
                     these payments. The daughter was sentenced to 6 months’ imprisonment
                     and ordered to pay SSA full restitution totaling $148,347.

                     Investigation: Man Hides Death, Uses Grandmother’s Beneﬁts

                     An anonymous complaint to the OIG Hotline alleged a man was
                     receiving his grandmother’s retirement beneﬁts under his own SSN.
                     Our Chicago Field Division investigated an anonymous complaint to the
                     OIG Hotline alleging a man’s grandmother died in February 1994 and the
                     grandson concealed her death from SSA to continue using her beneﬁts.
                     When confronted by our investigators, he admitted to concealing his
                     grandmother’s death and using the money for his personal needs.
                     He was sentenced to 5 months in prison and ordered to pay restitution of
                     $81,599 to SSA.

                     Investigation: Two Decades of Theft Lands Son in Prison

                     Our Atlanta Field Division investigated a referral from our Strategic
                     Enforcement Division involving beneﬁts payments to a South Carolina
                     woman whose SSA records indicated she had died in 1980. Our investigation
                     revealed that her son received and cashed his deceased mother’s Social
                     Security beneﬁt checks until May 2001. He was sentenced to 15 months in
                     prison and ordered to pay restitution of $146,484 to the Agency.


                     Investigative Project: Fugitive Felon Program
                     The Welfare Reform Act, Public Law (P.L.) 104-193, enacted on August
                     22, 1996, denies SSI for fugitive felons and for probation and parole
                     violators, and provides for the exchange of certain SSI information with
                     law enforcement agencies under speciﬁed conditions. Such fugitives are
                     denied Federal assistance, and relevant information is also provided to law
                     enforcement for their apprehension. The apprehension of such a person



page 18   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



who is ﬂeeing either prosecution or punishment can be as important as a
new conviction in other kinds of cases.

The Fugitive Felon Program uses automated data matches to compare
warrant information from the National Crime Information Center, the FBI,
the United States Marshals Service (USMS) and State agencies with SSA’s
SSI rolls. SSA currently has data-matching agreements with numerous
States and police departments, and is still pursuing such agreements with
other States. We continue working with SSA to further reﬁne and enhance
the automated process.

SSA data contributed to the arrest of 2,550 fugitives in this reporting
period—and a total of over 22,600 arrests since the fugitive program’s
inception in August 1996.

In September, the Commissioner recognized this year’s recipients of the
SSA Honor Awards, presenting the Commissioner’s Team Award to our
Fugitive Felon Team in recognition of their outstanding effort in providing
information to SSA and Congress as they pursued legislation to strengthen
Agency programs by prohibiting OASDI payments to fugitive felons. The
following are examples of our successful investigations involving fugitive
felons during this reporting period:

Investigation: Task Force Apprehends Parole Violator

Our New York Field Division helped a New York/New Jersey task force
apprehend a fugitive felon who had an outstanding warrant for a parole
violation after being convicted for criminal sale of a controlled substance.
Our investigators determined that the fugitive had a prior offense involving
sexual abuse and attempted rape. We helped task force agents arrest him
as he attempted to retrieve his SSI check at the General Post Ofﬁce in
Manhattan. He was transported to the Department of Corrections and held
pending his parole hearing.

Investigation: Fugitive Felon Project Nets Violent Fugitive
Our Fugitive Felon Project identiﬁed an SSI recipient wanted on a felony
warrant for violating a protection/restraining order, burglary, breaking and
entering to commit domestic violence, and possession of several loaded
ﬁrearms and other weapons. We located him in Providence, RI, where
Boston Field Division agents and Providence police ofﬁcers arrested him.
They found credentials identifying the fugitive as a Justice of the Peace,
along with a knife and a bag containing valium. Our investigators found he
exceeded the income/resources limit for SSI, as the owner of an auto sales
company. Besides facing the charges he ﬂed, he is now the subject of an OIG
criminal investigation into his alleged concealment of income/resources.



                                                                Management Issues • page 19
              Semiannual Report to Congress                  April 1, 2004 — September 30, 2004



                     Investigation: Long-Time Fugitive Arrested in California

                     Our Los Angeles Field Division investigated a long-time fugitive felon
                     wanted in Florida for aggravated battery. OIG agents and ofﬁcers from
                     the Los Angeles Police Department’s Fugitive Unit arrested the man in Los
                     Angeles over 11 years after the warrant was issued, due to data-sharing
                     efforts between OIG and the National Crime Information Center.




page 20   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



Issue 2: Management of the Disability Process
SSA administers the Disability Insurance (DI) and SSI programs, which
provide beneﬁts based on disability. Most disability claims are initially
processed through a network of Social Security ﬁeld ofﬁces (FO) and State
Disability Determination Services (DDS). SSA representatives in the FOs
are responsible for obtaining applications for disability beneﬁts, disability
report forms and authorization for disclosure of information forms as well
as verifying non-medical eligibility requirements, which may include age,
employment, marital status, or Social Security coverage information.
After initial processing, the ﬁeld ofﬁce sends the case to a DDS to develop
medical evidence and evaluate disability.

Once SSA establishes an individual is eligible for disability beneﬁts under
either the DI or SSI program, the Agency turns its efforts toward ensuring
the individual continues to receive beneﬁts only as long as SSA’s eligibility
criteria are met. For example, a CDR may show the individual no longer
meets SSA’s disability criteria or has demonstrated medical improvement.

If an individual disagrees with the Agency’s decision on his/her claim
or CDR, the claimant can appeal to SSA’s Ofﬁce of Hearings and
Appeals (OHA). OHA’s ﬁeld structure consists of 10 regional ofﬁces
and 140 hearing ofﬁces. OHA’s administrative law judges hold hearings
and issue decisions. In FY 2004, SSA processed 497,379 hearings.
OHA’s average processing time has increased signiﬁcantly from 297 days in
FY 2000 to 391 days in FY 2004. Further, the hearings pending workload was
635,601 cases on September 30, 2004, whereas on September 30, 2000 it was
346,756 cases. We have focused our attention on weaknesses within OHA—
such as the backlog of cases, safeguards for sensitive information in case
ﬁles, and shredding documents.

GAO added modernizing Federal disability programs—including SSA’s—to its
2003 high-risk list due, in part, to outmoded concepts of disability, lengthy
processing times, and decisional inconsistencies. In September 2003, the
Commissioner of Social Security proposed a new approach to improving
the disability determination process, which includes several initiatives that
emphasize timely and accurate disability decisions. For example, a quick-
decision step would initially sort claims based on information provided by
claimants to identify people who are obviously disabled. Additionally, the
Commissioner proposed an in-line quality review process and a centralized
quality control unit. The long-term proposal builds on SSA’s accelerated
efforts to transition to an electronic disability folder, the linchpin of SSA’s
efforts to modernize disability processes from application to allowance, or
through the appeals process.




                                                                   Management Issues • page 21
              Semiannual Report to Congress                   April 1, 2004 — September 30, 2004


                     In addition to her long-term proposal, the Commissioner has accelerated
                     the Agency’s transition to the electronic disability folder. The electronic
                     disability folder will allow for disability claims information to be stored
                     electronically and transmitted electronically between FOs, DDSs, and OHA.


                     Disability Fraud
                     Fraud is an inherent risk in SSA’s disability programs. Some unscrupulous
                     people view SSA’s disability beneﬁts as money waiting to be taken. A key
                     risk factor in the disability program is individuals who feign or exaggerate
                     symptoms to become eligible for disability beneﬁts or who, after becoming
                     eligible to receive beneﬁts, knowingly fail to report medical improvements.

                     We are working with SSA to address the integrity of the disability programs
                     through the CDI program. The CDI program’s mission is to obtain evidence
                     that can resolve questions of fraud in SSA’s disability programs.


                     Cooperative Disability Investigations Program
                     OIG manages the CDI program in a cooperative effort between SSA’s Ofﬁce
                     of Operations, OIG, and the Ofﬁce of Disability Programs. There are 18 CDI
                     units operating in 17 States.

                     CDI units are composed of OI special agents and personnel from SSA’s
                     Ofﬁce of Operations, the States’ DDSs, and State or local law enforcement.
                     They use their combined skills and specialized knowledge to:

                       • Provide the DDS with investigative evidence so it can make timely and
                         accurate disability eligibility determinations.

                       • Seek criminal and/or civil prosecution of applicants and beneﬁciaries
                         and refer cases for consideration of civil monetary penalties (CMP) and
                         administrative sanctions as appropriate.

                       • Identify, investigate, and seek prosecution of doctors, lawyers,
                         interpreters, and other third parties who facilitate disability fraud.

                     Our CDI units identify fraud and abuse before beneﬁts are approved and
                     paid. GAO acknowledged the CDI program’s successes by noting that we
                     have increased the level of resources and staff devoted to investigating SSI
                     fraud and abuse. In FY 2004, the CDI units saved SSA almost $133 million,
                     at an estimated cost of approximately $10.9 million. SSA hopes to add more
                     CDI units in FY 2005, depending on available resources.

                     The following cases and table highlight the successes of the CDI Program in
                     this reporting period.




page 22   •   Management Issues
April 1, 2004 — September 30, 2004                   SSA Ofﬁce of the Inspector General




              Cooperative Disability Investigations Program Results
                       April 1, 2004 - September 30, 2004


                        Allegations    Conﬁrmed                       Non-SSA
            State                                   SSA Savings
                         Received     Fraud Cases                     Savings
 Arizona                         38            17      $1,332,650        $155,570
 California                     180           110      $6,254,493       $4,909,030
 Colorado                        54            20      $1,078,496        $813,252
 Florida                         76            54      $3,485,298       $2,289,590
 Georgia                        139           101      $6,423,258       $2,000,689
 Illinois                        76            28      $1,666,040        $741,330
 Louisiana                       64            52      $2,785,056       $1,106,335
 Massachusetts                   66            36      $2,069,970        $947,360
 Missouri                       108            68      $3,991,536       $1,518,040
 New Jersey                     125            41      $2,652,204       $2,161,375
 New York                       104            91      $4,982,815       $6,380,460
 Ohio                           213           102      $6,681,936       $4,127,530
 Oregon                         187            97      $5,865,280       $3,819,865
 Tennessee                       71            40      $2,581,744       $1,415,023
 Texas                          160           114      $6,236,928       $3,036,077
 Virginia                        88            68      $4,443,260       $2,314,650
 Washington                     174           121      $6,786,588       $6,084,315
 Totals                       1,923         1,160    $69,317,552     $43,820,491

 October 1, 2003-             1,896         1,071    $63,598,643     $39,955,486
 March 30, 2004

 FY 2004                      3,819         2,231   $132,916,195     $83,775,977
 GRAND TOTALS


Investigation: Partners in $2.5 Million Scheme Imprisoned

Two New Jersey business partners ﬁled for disability beneﬁts in 1990,
both claiming physical and mental conditions. After being awarded
Title II beneﬁts and private disability insurance payments, they launched
several business ventures, including a restaurant specializing in gourmet
soups. Our Iselin CDI unit found that one partner told Forbes magazine in
September 2000 the restaurant had $700,000 in sales since opening in June
1996 and they intended to open 60 other locations. Both pleaded guilty to
theft by deception and falsifying records. They were sentenced to 3 and
4 years imprisonment respectively, and ordered to pay combined restitution
of $2,744,426 to SSA and a life insurance company.




                                                                    Management Issues • page 23
              Semiannual Report to Congress                  April 1, 2004 — September 30, 2004



                     Investigation: SSA/VA Disability Recipient Jailed for Fraud

                     An anonymous source reported that a man who ﬁled for disability beneﬁts
                     based on AIDS and other health problems used his deceased father-in-law’s
                     SSN to conceal earnings from January 1994 to February 2002, and was also
                     receiving VA beneﬁts. Our Nashville CDI Unit found that the man claimed
                     he was unable to stand or work for long periods, but was employed as a
                     truck driver most of that time, described as an “extremely hard worker,”
                     averaging 50-60 hours a week and rarely absent. He was sentenced to
                     14 months in prison and ordered to pay SSA restitution of $48,349 and the
                     VA restitution of $19,066.

                     Investigation: Claimant Representative Jailed for Fraud
                     SSA staff recognized a claimant representative, whose client was
                     applying for disability beneﬁts, as a claimant who was also receiving
                     disability beneﬁts under an alias. Our Baton Rouge CDI investigators
                     determined she had been receiving disability beneﬁts for 10 years,
                     claiming agoraphobia, a fear of public places. The investigation revealed
                     that she owned and operated a corporation representing thousands
                     of applicants for Federal beneﬁts for 3 years. She was representing
                     applicants before administrative law judges (ALJ) and Agency ofﬁcials
                     during the entire time she alleged agoraphobia. She was sentenced to
                     5 months in prison and ordered to pay restitution of over $76,000 to SSA.

                     Investigation: Bizarre Behavior Clue to Exposing Claim

                     The Texas DDS asked our Dallas CDI Unit to investigate a 22-year-old
                     woman whose bizarre behavior during her psychological examination for
                     disability beneﬁts—telling examiners she had an imaginary friend and
                     played with toys, teddy bears, and blocks—suggested she was malingering.
                     She claimed she was unable to clean a house, drive a car, pay bills, visit
                     family, or enjoy leisure activities. When CDI investigators interviewed
                     the woman, she admitted driving, paying her own bills, and completing
                     employment applications. She had a pre-employment interview at a retail
                     store the day before meeting with investigators, and said she wanted
                     to become a Certiﬁed Nurses Aide because they make good money.
                     The woman’s claim was denied.

                     Investigation: Horsewoman’s Vigor Belies Disability Claims

                     An anonymous report alleged a woman receiving disability for a back
                     condition was not disabled but very active, riding a horse vigorously for
                     prolonged periods. She alleged her condition made her unable to stand
                     and walk for over 2 hours a day. Though she claimed she had not ridden
                     since 1997 except for a 5-minute attempt the previous year which produced


page 24   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



intolerable pain, our Salem CDI Unit investigators determined that the
woman and her husband rode on a regular basis and were seen riding a
month before her CDR. We found she provided her 3 horses normal horse
care, and was involved in a riding club and rode in competition in 2001.
She also participated in endurance riding for an average of 20 miles over
varied terrain. Her disability beneﬁts were halted.

Investigation: Cosmetologist Kept From Clipping SSA

Our Denver CDI unit investigated a 49-year-old cosmetologist who
ﬁled for disability beneﬁts, alleging limited use of both
arms, and said that pain in her lower back, hips, and feet
kept her from bathing and dressing. Our investigators
determined she renewed her cosmetologist license on
May 1, 2003 and had a full salon attached to her residence. A
CDI team member made an appointment for a haircut, during
which the claimant boasted she had completely renovated the
salon herself, including new paint and a new ﬂoor. She said she
had been cutting hair over 30 years. Her claim was denied.

Our audit work on SSA’ management of the disability process
has included the following.

Congressional Response Report: SSA Chicago Regional Ofﬁce’s
DDS Net Accuracy Rate

In a letter dated January 27, 2004, Congressman E. Clay Shaw, Jr., Chairman
of the House Ways and Means Subcommittee on Social Security, asked OIG
to review the allegations from a former medical consultant that the Chicago
SSA Regional Ofﬁce (RO) may have manipulated its calculation of the DDS
net accuracy rate by discouraging medical reviewers from ﬁnding errors.
Congressman Shaw requested an evaluation of the degree to which the
DDS net accuracy rate performance indicator is being manipulated or has
the potential to be manipulated by SSA employees.

The Agency assures the quality of initial State disability determinations by
reviewing a random sample of allowances and denials from each State.
A random stratiﬁed sample of initial allowances and denials is selected from
each State by an automated sample selection process at the time of DDS
input to the National DDS System. The basic design is to obtain a sample of
70 allowances and 70 denials per quarter per State. Sample cases are sent
to the Ofﬁce of Quality Assurance and Performance Assessment Disability
Quality Branch in each region for quality assurance review. The review
process replicates the DDS’ disability determination process to the extent
possible.



                                                                Management Issues • page 25
              Semiannual Report to Congress                      April 1, 2004 — September 30, 2004



                     The quality assurance review process results in the calculation of DDS net
                     accuracy, which is deﬁned as the percentage of correct initial disability
                     determinations. The net accuracy rate is based on the net error rate, which
                     is deﬁned as the number of corrected deﬁcient cases with changed disability
                     decisions, plus the number of deﬁcient cases that are not corrected within
                     90 days from the end of the calendar quarter, divided by the number of
                     cases reviewed.

                     We found no evidence to support allegations that the Chicago SSA RO
                     manipulated its DDS net accuracy rate. Furthermore, the DDS net accuracy
                     rate calculation does not appear to be vulnerable to manipulation because
                     of existing management controls over the net accuracy rate calculation.

                     No recommendations were made.

                     Management Advisory Report: Ofﬁce of Hearings and Appeals Case
                     File Assembly Contracts

                     As a follow-up to our report, Congressional Response Report: Review
                     of File Assembly Contracts at Ofﬁces of Hearings and Appeals, and to
                     inquire as to whether similar problems existed in other OHA ofﬁces,
                     Congressman E. Clay Shaw, Jr., Chairman of the House Ways and
                     Means Subcommittee on Social Security, requested in a letter dated
                     October 14, 2003 that we review additional ﬁle assembly contracts.
                     We issued our report to Congressman Shaw on March 3, 2004.

                     The objectives of our review were to determine whether:

                       • OHA ﬁle assembly contractors followed the terms of the contracts.

                       • File assembly contractors had controls in place to safeguard sensitive
                         information contained in the case ﬁles.

                       • OHA provided         adequate   oversight   of   ﬁle   assembly   contractor
                         activities.

                                  Within SSA, OHA is responsible for conducting hearings and
                                  issuing decisions as part of determining whether a person
                                  may receive disability beneﬁts. When a claimant requests a
                                  hearing, an ALJ conducts the hearing and issues a written
                                  decision.

                                  Some OHA ofﬁces use contractors to prepare case ﬁles for
                                  review by ALJs. The contractors organize medical documents
                     chronologically, arrange documents in appropriate sections of the case ﬁles,
                     number documents, identify and retain duplicate documents, and ensure all
                     pertinent documents are appropriately labeled.

                     In this review, we found that:


page 26   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



  • The ﬁle assembly contractor in the Boston region inappropriately
    removed documents from case ﬁles, contrary to the terms of the
    contract.

  • Training instructions given to contractors by some OHA ofﬁces were not
    consistent with the terms of the contracts.

  • Some OHA ofﬁces did not have controls in place to safeguard case
    ﬁles.

We recommended that SSA:

  • Ensure the Boston contractor is following the correct procedures for
    case ﬁle assembly.

  • Ensure that the case ﬁles assembled by the Boston contractor contain
    complete evidence to render an accurate disability decision.

  • Develop standardized guidelines for ﬁle assembly contractors to ensure
    consistent and accurate training in all OHA regions.

  • Issue guidelines that ensure the security of case ﬁles at all ﬁle assembly
    locations.

SSA agreed with our recommendations.

DDS Claims Processing Performance

Our objective was to identify factors that may have resulted in differing
levels of performance at selected DDSs. To accomplish our objective,
we identiﬁed groups of DDSs based on initial case clearances for
FYs 2000 through 2002. We ranked the DDSs within each group according
to performance on four indicators: production, timeliness, accuracy, and
cost. We selected the higher- and lower-performing DDS in each stratum
and collected and analyzed information from 10 DDSs to identify factors
that may have resulted in differing levels of performance between the
higher- and lower-performing DDSs.

We found that, generally, the lower-performing DDSs had higher rates
of disability examiner attrition, fewer examiners in relationship to total
staff, and purchased consultative exams (CE) on more claims than their
higher-performing DDS counterparts. In addition, State restrictions on hiring
staff and high rates of claimants who missed scheduled CE appointments
may have negatively affected the claims processing performance of both
higher- and lower-performing DDSs. We acknowledged that there are other
factors that most likely also inﬂuenced the performance of the DDSs in the
review and, accordingly, do not suggest that the factors identiﬁed in the
report are all inclusive.



                                                                  Management Issues • page 27
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     We noted that the DDSs are responsible for providing an organizational
                     structure and qualiﬁed personnel to process disability claims and to obtain
                     evidence needed to make disability determinations. However, SSA is
                     required to work with DDSs to provide and maintain an effective system for
                     processing disability claims, including providing leadership and oversight.

                     We recommended that SSA:

                       • Continue to work with State governments to resolve the factors that
                         result in high DDS examiner attrition and difﬁculties in hiring staff.

                       • Initiate development of an optimal staff mix model.

                       • Establish outreach efforts with providers who are historically unwilling
                         to submit medical evidence in a timely manner.

                       • Assist DDSs to establish innovative processes that will lower the high
                         rates of claimants who miss their CE appointments.

                     SSA commented on our draft report stating it generally agreed with our
                     ﬁndings and conclusions. However, the Agency said it could not develop an
                     optimal DDS staff mix model at this time because stafﬁng mix requirements
                     for the electronic folder and the Commissioner’s new disability process are
                     unknown. However, SSA stated that it will evaluate the stafﬁng requirements
                     as it transitions into the new processes.

                     Best Practices in Highest Producing Hearing Ofﬁces

                     Our objective was to identify potential factors and practices at hearing ofﬁces
                     that result in differing levels of performance in the areas of productivity and
                     timeliness.

                     To understand how best practices are being used in the hearing ofﬁces, we
                     contacted 12 of OHA’s highest producing hearing ofﬁces in both dispositions
                     per day per ALJ and processing time.

                     We found that OHA released numerous best practice ideas to hearings
                     ofﬁces over the years to improve their disposition rates and timeliness.
                     Recent best practice releases have been less useful due to:

                       • A lack of focus.

                       • Inability to determine the effectiveness of the best practices.

                       • Conﬂicting messages.

                     We commended OHA for examining best practices as another tool to help
                     increase dispositions and meet processing time goals. However, we believe
                     OHA would beneﬁt from a more focused approach. We identiﬁed 3 best
                     practices for increasing dispositions and 5 best practices for meeting the



page 28   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



processing time goal that are being used at 12 of OHA’s highest producing
hearing ofﬁces we selected.

We recommended that SSA:

  • Consider developing a process similar to the earlier Practice and
    Procedures Exchange model in future development and releases of
    best practice ideas to the regional ofﬁces and hearing ofﬁces.

  • Share the eight best practices identiﬁed in our review with all hearing
    ofﬁces.

SSA agreed with our recommendations.

The following are examples of our successful disability fraud investigations
during this reporting period:

Investigation: Illinois Couple Get 5 Years in SSA, VA Fraud

The Department of Veterans Affairs (VA) OIG asked our Chicago Field
Division for assistance investigating a husband and wife for veterans
beneﬁts fraud. Our joint investigation provided such a substantial amount
of evidence that they committed fraud against both SSA and VA disability
programs that the jury deliberated just 15 minutes before returning a
guilty verdict on all 7 criminal counts. The husband and wife each received
5 years in prison. They were ordered to pay joint restitution of $185,114
(80 percent to VA and 20 percent to SSA).

Investigation: Beneﬁciary Holds 3 Jobs Too Many

Our Atlanta Field Division took part in a joint investigation of a U.S. Postal
Service (USPS) employee who concealed work activity from the USPS,
the Department of Labor (DOL) and SSA while she received pay from the
USPS, worker’s compensation from DOL, and disability beneﬁts from SSA
after being injured while working. Our investigators determined that while
receiving these beneﬁts, she opened and operated a restaurant and became
an independent contractor for a package delivery service. Found guilty on
34 criminal counts, she lost her postal job, was sentenced to 18 months in
prison, and was ordered to pay restitution of $111,063.

Investigation: Florida Man Faked Disability to Receive Beneﬁts

VA OIG informed our Atlanta Field Division that a disability beneﬁciary
might not be disabled. Our investigation documented on videotape that the
allegedly wheelchair-bound man walked without assistance. Additionally,
when pulled over for a trafﬁc violation, he resisted arrest by throwing his
cane and running from law enforcement ofﬁcers. He was sentenced to
7 months’ incarceration and ordered to pay restitution of $384,934.


                                                                  Management Issues • page 29
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     Issue 3: Social Security Number Protection
                     In FY 2004, SSA issued over 17.5 million original and replacement Social
                     Security cards, and received approximately $545 billion in employment
                     taxes related to earnings under assigned Social Security numbers (SSN).
                     Protecting the SSN and properly posting the wages reported under SSNs are
                     critical to ensuring eligible individuals receive the full beneﬁts due them.


                     Efforts to Protect the SSN
                     The SSN has become a key to social, legal, and ﬁnancial assimilation in this
                     country. Because the SSN is so heavily relied upon as an identiﬁer, it is also
                     valuable as an illegal commodity. Criminals improperly obtain SSNs by:

                       • Presenting false documentation.

                       • Stealing another person’s SSN.

                       • Purchasing an SSN on the black market.

                       • Using the SSN of a deceased individual.

                       • Creating a nine-digit number out of thin air.

                     To ensure SSN integrity, SSA must employ effective front-end controls in its
                     enumeration process. We believe SSA should:

                       • Establish a reasonable threshold for the number of replacement Social
                         Security cards an individual may obtain during a year and over a
                         lifetime.

                       • Continue to address identiﬁed weaknesses in its information security
                         environment to better safeguard SSNs.

                       • Consider revising its policies to require that ﬁeld ofﬁces obtain
                         independent veriﬁcation of the birth records for U.S. citizens under age
                         1 before SSN assignment.

                     SSA has taken steps to improve controls within its enumeration process,
                     including establishing the Enumeration Response Team. As a result of the
                     Team’s efforts, SSA now performs full collateral veriﬁcation of all immigration
                     documents before assigning SSNs to non-citizens. SSA requires mandatory
                     interviews for all applicants for original SSNs who are over age 12 (lowered
                     from age 18) and requires evidence of identity for all children, regardless of
                     age. In addition, SSA has established an Enumeration Center in Brooklyn,
                     New York, that focuses exclusively on assigning SSNs and issuing SSN
                     cards.

                     The Agency also initiated a new policy for enumerating foreign students.
                     Speciﬁcally, SSA will no longer assign an SSN to any foreign student with


page 30   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



an “F-1” immigration classiﬁcation, unless the student has evidence of on-
campus work from the designated school ofﬁcial and on-campus employer.

The Agency implemented new enhancements to its Modernized Enumeration
System (MES) that will interrupt the issuance of SSN cards when parents
claim to have an improbably large number of children, and add a special
code to an individual’s record as an alert that the SSN was used for the
purpose of establishing a ﬁctitious identity. SSA also implemented the MES
Workload Management Information (WMI) application, which provides ﬁeld
ofﬁce managers with better data to identify employee non-compliance with
enumeration policies and allows them to better focus training resources.
Other system enhancements planned by SSA include the SS-5 Assistant,
which will be available to all SSA ﬁeld ofﬁces in FY 2005. This system
will simplify the interpretation of and compliance with the Agency’s
complex enumeration policies, determine what documents and proofs the
SSN applicant must present and prompt the employee to ask for and input
data in mandatory ﬁelds.


The SSN and Reported Earnings
Properly posting earnings ensures eligible individuals receive the full
retirement, survivor and/or disability beneﬁts due them. If earnings
information is reported incorrectly or not reported at all, SSA cannot
ensure all eligible individuals are receiving the correct payment amounts.
In addition, SSA’s disability programs depend on earnings information to
determine whether an individual is eligible for beneﬁts and to calculate the
amount of beneﬁt payments.

SSA spends scarce resources correcting earnings data when incorrect
information is reported. The Earnings Suspense File (ESF) is the Agency’s
record of annual wage reports for which wage earners’ names and SSNs
submitted by employers do not match SSA’s records. As of October
2004, SSA had posted 9 million wage items to its ESF for Tax Year 2002,
representing about $56 billion in wages. This was before some planned
edits, which may have further reduced this number.

While SSA has limited control over the factors that cause the volume of
erroneous wage reports submitted each year, there are still areas where
the Agency can improve its processes. SSA can improve wage reporting
by educating employers on reporting criteria, identifying and resolving
employer reporting problems, and encouraging greater use of the Agency’s
SSN veriﬁcation programs. SSA also needs to coordinate with other Federal
agencies with separate, yet related, mandates. For example, the Agency
now collaborates with the Internal Revenue Service to achieve more
accurate wage reporting.



                                                                Management Issues • page 31
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     SSA has taken steps to reduce the size and growth of the ESF. For example,
                     SSA has expanded its Employee Veriﬁcation Service by piloting an online
                     service called the Social Security Number Veriﬁcation Service, which allows
                     employers to verify the names and SSNs of employees before reporting
                     their wages to SSA. The Agency has also modiﬁed its automated processes
                     to better identify the numberholder related to suspended items. Whereas
                     previous internal edits used only the name and SSN related to the suspended
                     wage, SSA stated the new processes would use information stored on the
                     earnings and beneﬁts records.


                     The SSN and Unauthorized Work
                     SSA assigns non-work SSNs to non-citizens without DHS authorization to
                     work only if they have valid non-work reasons; i.e., (1) reside either in or
                     outside the U.S. and are entitled to federally-ﬁnanced beneﬁts that require
                     an SSN, or (2) are legally present in the U.S. and entitled to a State or local
                     public assistance beneﬁt which requires an SSN. In recent years, SSA has
                     strictly limited the assignment of such numbers. Furthermore, SSA monitors
                     non-citizens who show earnings under a non-work SSN and reports this
                     information to DHS. Nonetheless, our audits have noted a number of issues
                     related to non-work SSNs, including:

                       • The type of evidence provided to obtain a non-work SSN.

                       • The reliability of non-work SSN information in SSA’s records.

                       • The signiﬁcant volume of wages reported under non-work SSNs,

                       • The payment of beneﬁts to non-citizens who qualiﬁed for their beneﬁts
                         while working in the country without proper authorization.

                     The Social Security Protection Act of 2004 prohibits the payment of Title II
                     beneﬁts based on the earnings of any individual who is not a U.S. citizen
                     or national and who has never been issued an SSN to work in the United
                     States for all beneﬁt applications based on an SSN issued on or after January
                     1, 2004. To implement this new law, we believe increased coordination
                     between SSA and DHS will be required to ensure SSA has the correct work
                     status information in its systems.

                     In this reporting period, we conducted the following reviews in this area.

                     SSNs with More Than One Owner

                     Our objective was to determine how often SSA’s records show that more
                     than one individual has been provided with the same SSN.

                     In an August 2002 audit, Effectiveness of the Social Security Administration’s
                     Earnings After Death Process, we reported on two Numident records where



page 32   •   Management Issues
April 1, 2004 — September 30, 2004                   SSA Ofﬁce of the Inspector General



more than one person appeared to share the same SSN. At the time, we
referred the cases to the Agency for resolution. SSA staff explained to us
that such errors may occur when identifying information for one person is
erroneously posted to the Numident record of another individual.

In this audit, we reviewed 100 records taken from a subset of Numident
records in which more than one date of birth or place of birth appeared
on the ﬁle. Based on our review, we identiﬁed 3 instances of 2 individuals
sharing the same SSN, with 1 case leading to a $49,100 overpayment
of beneﬁts. Furthermore, we reviewed another 3 similar cases from an
earlier audit and identiﬁed another $223,200 in payment errors caused by
2 individuals sharing 1 SSN. The majority of the enumeration input errors
we reviewed during this audit occurred prior to improvements made to the
Modernized Enumeration System (MES).

In summary, we believe that SSA’s current enumeration procedures should
minimize future occurrences of individuals sharing the same SSN. However,
we also believe that past enumeration problems may still lead to payment
errors in the future. We recommended that SSA take appropriate action on
the cases with improper payments discussed in this report. SSA agreed with
our recommendation.

Management Advisory Report: Review of Universities’ Issuance of
Temporary SSNs to Foreign Students

In June 2003, we notiﬁed SSA of our concerns regarding some Florida
universities’ practice of issuing temporary SSNs to foreign students.
We found that some universities began this practice as a result of delays
foreign students were experiencing in obtaining an SSN based on SSA’s
policy change to verify evidentiary documents of all noncitizens with DHS
before issuing an SSN. While our initial focus was on Florida universities, this
report included an analysis of other universities nationwide. Our objective
was to evaluate universities’ policies and procedures for issuing temporary
SSNs to foreign students.

Based on our interviews with various university personnel and reviews
of Internet web sites, we were concerned about universities’ issuance of
temporary SSNs to foreign students. We identiﬁed numerous instances
in which universities issued temporary 9-digit identiﬁcation numbers to
foreign students and improperly referred to them as temporary SSNs.
We were concerned that foreign students could easily construe these
temporary numbers as legitimate SSNs and potentially misuse them,
creating SSN integrity issues. SSA personnel with whom we spoke shared
our concern, and SSA initiated a national review to identify universities
engaging in this practice. Despite SSA’s efforts to educate universities about



                                                                    Management Issues • page 33
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                     their improper references to temporary SSNs, we found the risk of exposure
                     to this practice remained.

                     We recognize the challenge of educating such a large number of universities.
                     However, given the potential magnitude of the problem and threats to SSN
                     integrity, such a challenge should not discourage SSA from taking additional
                     steps to safeguard SSNs. Given the potential risks for foreign students
                     to misuse temporary identiﬁcation numbers, we believe SSA can better
                     safeguard SSN integrity by educating all universities about the proper
                     issuance of SSNs to foreign students.

                     Accordingly, we recommended that SSA:

                       • Contact the universities we identiﬁed that issued temporary SSNs and
                         educate them about the potential risks of this improper practice.

                       • Coordinate with national educational associations and foreign student
                         organizations to educate the university community about the potential
                         risks of referring to student identiﬁcation numbers as temporary
                         SSNs.

                     SSA agreed with our recommendations.

                     Congressional Response Report: Survey of Educational
                     Institutions’ Issuance of Work Authorization Documents to Foreign
                     Students

                     At the request of staff members for the Senate Committee on Governmental
                     Affairs, we conducted a survey of educational institutions’ policies and
                     procedures for assisting foreign students in obtaining SSNs by issuing them
                     work authorization letters.

                     Almost 600,000 foreign students were enrolled in educational institutions in
                     the U.S. during the 2002-2003 academic year. Students are admitted under
                     3 non-immigrant classiﬁcations. Our survey focused on students with F-1
                     classiﬁcations because they are eligible to work on campus without obtaining
                     speciﬁc approval from DHS. For an F-1 student’s SSN application to be
                     approved, the student had to provide SSA evidence of age, identity, legal
                     alien status, full-time enrollment, and (DHS or school issued) authorization
                     to work. We interviewed representatives at 25 institutions with a diverse
                     mixture of student populations and academic subjects. Speciﬁcally, the
                     interviews were designed to determine the schools’ policies and practices
                     for:

                       • Issuing work authorization letters to facilitate F-1 students’ attainment
                         of SSNs.




page 34   •   Management Issues
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General




  • Monitoring the enrollment, attendance and employment of these
    students.

We found that schools have a variety of policies governing the issuance of
work authorization letters to assist F-1 students in obtaining SSNs. Of the
25 educational institutions we contacted, 10 provided work authorization
letters to F-1 students because they were eligible to work on campus as
a condition of their immigration status and 5 provided the letters because
students indicated they planned to pursue on-campus employment. We
found that 7 educational institutions only issued work authorization letters
after students provided evidence they had found on-campus employment.
The remaining 3 institutions did not issue work authorization letters.

We understand foreign students’ concerns regarding their ability to
effectively function and integrate while studying in the U.S. As such, we
believe more should be done to limit the use of the SSN to only legally-
sanctioned purposes. However, we also believe the assignment of SSNs
should be limited to only those individuals who plan to work or receive
beneﬁts in the United States. Accordingly, we support SSA’s new regulation
which will limit the assignment of SSNs to only F-1 students with evidence
of on-campus or DHS-approved job offers.

Enumeration of Children Under Age 1: Opportunity to Reduce the
Risk of Improper SSN Attainment

Our objective was to assess SSA’s vulnerability to invalid birth records when
assigning original SSNs to children under age 1.

SSA requires that all U.S. citizens who apply for original SSNs provide
evidence of age, identity, and U.S. citizenship. Generally, SSA uses
birth records to establish an applicant’s age. Until 2002, SSA required
independent veriﬁcation of birth records for U.S.-born, ﬁrst-time
SSN applicants age 18 and over. As of June 1, 2002, SSA began requiring
FO personnel to independently verify birth records for U.S. citizens age
1 and older before assigning them an original SSN. Currently, however,
SSA does not independently verify the birth of a child under age 1 unless
FO personnel believe the evidence presented is invalid.

Despite SSA’s commitment to combat SSN fraud and misuse, the Agency’s
exposure to such activity remains. We identiﬁed three instances in which
SSA assigned original SSNs to children under age 1 based on invalid birth
records. In addition, our investigators have identiﬁed numerous cases in
which individuals used invalid documents to obtain SSNs for young children.
GAO investigators also proved the ease with which individuals can obtain
SSNs for children under age 1 using counterfeit documents.


                                                                 Management Issues • page 35
              Semiannual Report to Congress                   April 1, 2004 — September 30, 2004



                     We recommended that SSA:

                       • Consider revising its policies to require that FOs obtain independent
                         veriﬁcation of the birth records for U.S. citizens under age 1 before
                         SSN assignment.

                       • Place a special indicator code on the 3 SSNs that FO personnel assigned
                         based on invalid birth records.

                     SSA agreed with our recommendations.

                     Field Ofﬁces, Foreign Service Posts, and Brooklyn Social Security
                     Card Center’s Compliance with Policies and Procedures When
                     Processing Non-citizen SSN Applications

                     Our objectives in these 3 audits were to evaluate SSA’s compliance with
                     policies and procedures when processing non-citizen SSN applications at
                     FOs, Foreign Service Posts (FSP), and the Brooklyn Social Security Card
                     Center (BSSCC).

                     Non-citizens can apply for SSNs at any of SSA’s 1,300 FOs around the
                     country, at one of the Department of State (DOS) FSPs around the world,
                     or at the BSSCC (mandatory for Brooklyn residents). When a non-citizen
                     applies for an original SSN, he or she must complete, sign, and submit
                     an Application for a Social Security Card to SSA and provide acceptable
                     documentary evidence of:

                       • Age.

                       • Identity.

                       • Work authorized lawful alien status and/or a valid non-work reason.

                     Because of SSN integrity concerns, SSA reevaluated its policies and
                     procedures for assigning SSNs to non-citizens. Accordingly, effective
                     September 2002, Agency personnel began verifying non-citizen evidentiary
                     documents with DHS and/or DOS before SSN assignment. In addition,
                     SSA personnel record a description of non-citizens’ immigration documents
                     and the veriﬁcation of these documents on the SSN application.
                     This information serves as an audit trail by documenting Agency personnel’s
                     actions taken during SSN application processing.

                     Based on our reviews of SSN applications processed by SSA ﬁeld ofﬁces,
                     foreign service posts and SSA’s Ofﬁce of International Operations,
                     we estimate that over 30 percent contained some compliance errors.
                     Additionally, our review of SSA’s Enumeration Center in Brooklyn,
                     New York revealed a non-compliance rate of 15 percent for SSN applications
                     processed.




page 36   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



The most common occurrence of non-compliance was failure to document
the veriﬁcation of immigration status with DHS.

SSA agreed with our recommendations to:

  • Reemphasize the importance of following all policies and procedures
    when processing SSN applications from non-citizens.

  • Conduct periodic studies to assess compliance with policies and
    procedures for processing non-citizen SSN applications.

  • Consider MES enhancements that would prevent SSN assignment
    to non-citizens when FO personnel do not comply with policies and
    procedures.

We commended SSA for its efforts to strengthen the integrity of the SSN.
We especially acknowledge the New York Region’s recently developed
automated application enhancements. We believe these applications will
serve as valuable tools to ensure compliance with SSA enumeration policies
and procedures.

SSA’s Internal Use of Employees’ SSNs

Our objectives were to determine the extent of SSA’s internal use of
employees’ SSNs, and to evaluate the safeguards used within the Agency
to protect the conﬁdentiality of these SSNs.

We reported the SSN is used extensively within SSA’s systems and documents
to identify its employees. Further, the Agency has some safeguards in place
to protect the conﬁdentiality of its employees’ SSNs. However, the Agency
needs to enforce current policies to ensure these SSNs are protected.

SSA’s extensive use of employee SSNs in its systems and documents
increases the risk that the employee SSN may be accessed by unauthorized
personnel. The Agency has mitigated this through some safeguards, but
additional actions are needed. With the increasing impact of identity theft
on the public and economy, SSA—as the issuer of SSNs—should be the
model for both the public and private sectors by taking the leadership role
in protecting SSNs, including those of its employees.

We recommended SSA:

  • Remind employees to secure any system or document containing
    employee SSNs when not being used.

  • Consider using asterisks to hide the employee SSN.

  • Identify the forms that request the employee’s SSN, and if the SSN is
    not required, eliminate its use on these forms.



                                                                Management Issues • page 37
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                       • Determine if it is cost beneﬁcial to use an alternative primary identiﬁer
                         for its employees for all future SSA systems.

                       • Consider and use encryption where feasible.

                     SSA agreed with our recommendations. Further, the Agency agreed that it
                     needed to exercise due diligence in protecting employee SSNs. SSA noted
                     that unlike the private sector, it is bound by Executive Order 9397 and
                     1961 Civil Service Commission directives mandating the use of SSNs as the
                     identiﬁer of Federal employees. As a result, the Agency says that until such
                     time as both directives are rescinded or modiﬁed, it is required to use the
                     SSN as the employee identifying number.

                     The following are examples of our successful SSN misuse investigations
                     during this reporting period:

                     Investigation: Attempted Murder Suspect Caught for SSN Fraud

                     Investigating an alert that a number of new Social Security cards were
                     sent to a single address, our Atlanta Field Division investigators found
                     the cards were issued based on fraudulent applications. The investigation
                     exposed an interstate organization responsible for distributing counterfeit
                     identiﬁcation documents and fraudulently-obtained Social Security cards.
                     SSA processed at least 120 fraudulent applications and sent the cards to
                     numerous addresses, mostly post ofﬁce boxes. Additionally, we determined
                     that the ringleader was wanted for attempted murder, and used identity
                     fraud to evade apprehension. Sentenced to 46 months in prison, he was
                     also ordered to pay restitution of $8,587.

                     Investigation: SSN/SSI Fraud Leads to Arrest of Drug Ring

                     The Quad City Metropolitan Enforcement Group in Davenport, Iowa asked
                     our St. Louis Field Division for help on an investigation begun in early
                     1990s involving a mother, her son and her daughter selling illegal drugs.
                     Our investigators determined the mother was using 2 SSNs she had been
                     issued by SSA—one to collect SSI beneﬁts and the other to register vehicles
                     and open bank accounts. A joint investigation was opened that included the
                     Drug Enforcement Administration, Internal Revenue Service, and the Iowa
                     Department of Inspections and Appeals. We found the family concealed
                     the drug distribution operation by operating a restaurant and purchasing a
                     Picasso print, high-priced cars and motorcycles, several properties in Iowa
                     and two ocean-front condominiums in California to launder drug money.
                     The mother also obtained SSI beneﬁts, claiming total disability, fraudulently
                     receiving $24,391 in SSI beneﬁts and over $50,000 in Medicaid. She was
                     sentenced to 151 months in prison and ordered to pay a court-imposed CMP
                     totaling $900 plus full restitution of $24,391 to SSA and $66,681 to the



page 38   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



Department of Health and Human Services. The son was given 360 months’
incarceration with an $800 CMP, and the daughter received 121 months’
imprisonment with a $600 CMP.

Investigation: Grandmother Jailed for Child Theft in SSN Fraud

Police in Kansas asked our St. Louis Field Division to help investigate
inconsistencies in a runaway child case. Our investigators learned the girl’s
grandmother had taken the 1-year-old from the child’s mother and ﬂed
with her to another state. For the past 13 years, the girl’s grandmother
and child lived under fake identities that the grandmother created through
SSA with forged birth certiﬁcates for twins. The woman was sentenced to
one year in prison for aggravated interference with parental custody. The
child is currently in foster care and the child’s mother is attempting to gain
custody.

Investigation: SSN Fraud, Stolen Mail Lead Two Men to Jail

Our Denver Field Division and USPIS investigated mail stolen from private
mailboxes and U.S. Postal receptacles in South Dakota. Our investigators
found that two men extracted checks, banking information, SSNs and
other personal identiﬁers which they used to create false identiﬁcation
documents, bank accounts and payroll checks. Each was sentenced to
27 months’ incarceration for bank fraud, conspiracy to commit mail theft,
and possession of embezzled mail, and ordered to pay restitution of
$13,028.


Investigative Challenge -- Employee Fraud and SSN
Integrity
It only takes a few corrupt employees to compromise the integrity of
the Social Security system and undermine the public’s conﬁdence in
SSA’s programs. Although the vast majority of SSA’s over 60,000 employees
are trustworthy, dedicated civil servants, OIG remains vigilant. As the illicit
demand for SSNs increases the proﬁtability of taking part in schemes
to provide genuine Social Security identiﬁcation illegally to fraudulent
applicants, our investigators and auditors have found that occasionally
SSA employees have succumbed to this temptation. The detection of
employees committing SSN fraud for personal gain is an investigative
priority, although it comprises very few allegations and cases.

Examples of our successful investigations in this area during this reporting
period include the following:




                                                                   Management Issues • page 39
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     Investigation: “Fast Track to Citizenship” Scam Halted

                     Our Los Angeles Field Division halted an elaborate scheme promising
                     immigrants a package deal consisting of a Social Security card and
                     U.S. citizenship for up to $75,000 per person. We learned that the woman
                     who ran the operation, an incorrigible criminal with two prior convictions for
                     immigration fraud, told victims that she was a Central Intelligence Agency
                     (CIA) ofﬁcer who could bypass normal channels and naturalize people
                     directly. She staged naturalization ceremonies along with a co-defendant
                     posing as a Federal judge, fraudulently obtaining genuine Social Security
                     cards through a 15-year SSA employee. A fourth co-defendant recruited
                     victims. The ringleader—who also fraudulently received $36,820 in
                     Title II beneﬁts paid to her deceased ex-husband—was sentenced to
                     121 months in prison, and ordered to pay a special assessment of $2,500 and
                     restitution of $349,065 to the victims of her scheme. The fraud loss was fully
                     recovered. The bogus judge received 3 years’ probation and was ordered to pay
                     $46,550 in restitution. The SSA employee, who provided substantial assistance
                     to the Government, resigned in lieu of termination and was sentenced to
                     2 months of incarceration. The “broker” who recruited victims was given
                     2 years of probation.

                     Investigation: Employee Fired, Jailed in Card Scheme

                     An illegal alien told Atlanta Field Division investigators in a post-arrest
                     statement that he had purchased a Social Security card for $1,300 from
                     an individual claiming to know a corrupt SSA employee in the South
                     Florida area. Our investigators found that a State of Florida investigator, an
                     SSA employee and others conspired to produce and distribute genuine
                     Social Security cards to 423 undocumented aliens. The Florida investigator
                     was sentenced to 24 months in prison, ﬁned $1,000, and terminated for his
                     role in the fraud. The SSA employee was also terminated and sentenced to
                     30 months of incarceration. Two other co-conspirators have not yet been
                     charged.


                     The SSN Integrity Protection Team
                     There is a great deal of illicit money to be made in SSN misuse, and the
                     costs to all of us are very high. To help combat and prevent such crimes,
                     OIG created its SSN Integrity Protection Team. This team provides an
                     integrated approach to addressing SSN misuse, combining the talents of
                     our auditors, investigators, computer specialists, analysts, and attorneys.
                     The team approach allows OIG to more effectively address this growing
                     problem and provide assistance to SSA, Congress, the public, and other law
                     enforcement entities.




page 40   •   Management Issues
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



Speciﬁcally, the Team focuses its efforts on identifying patterns and trends
indicative of SSN misuse that will help us better target audit work, refer
cases for investigation, and ensure efﬁcient and effective liaison with other
relevant public and private sector entities. In FY 2004, the Team provided
assistance in responding to numerous Congressional and media inquiries.
Additionally, the Team drafted testimony on identity theft and SSN misuse
for hearings before the U.S. House of Representatives’ Committee on
Government Reform, the Committee on Ways and Means Subcommittee on
Social Security, and the Subcommittee on Oversight. To improve safeguards
in the enumeration process, the Team also provided assistance in
developing legislative proposals, audit recommendations and investigative
trend analyses for OIG stakeholders including SSA, Congress and the law
enforcement community. Further, as a form of outreach to the public, the
Team developed an Identity Theft brochure, which provides information on
how to prevent identity theft and what steps to take if it does occur.




                                                                 Management Issues • page 41
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     Issue 4: Critical Infrastructure Protection and
                     Systems Security
                     Today, the growth in computer interconnectivity brings a heightened
                     risk of disrupting or sabotaging critical operations, reading or copying
                     sensitive data, and tampering with critical processes. Those who wish
                     to disrupt or sabotage critical operations have more tools than ever. The
                     United States works to protect the people, economy, essential services,
                     and national security by ensuring that any disruptions are infrequent,
                     manageable, of minimal duration, and cause the least damage possible.
                     The Government must continually strive to secure information systems
                     for critical infrastructures. Protection of these systems is essential to
                     telecommunications, energy, ﬁnancial services, manufacturing, water,
                     transportation, health care, and emergency services.

                     SSA’s information security challenge is to understand and mitigate system
                     vulnerabilities. At SSA, this means ensuring the security of its critical
                     information infrastructure, such as access to the Internet and its networks.
                     By improving systems security and controls, SSA will be able to use current
                     and future technology more effectively to fulﬁll the public’s needs. The public
                     will not use electronic access to SSA services if it does not believe those
                     systems are secure. SSA addresses critical information infrastructure and
                     systems security in a variety of ways. For example, it has created a Critical
                     Infrastructure Protection work group that works toward compliance with
                     various directives, such as the Homeland Security Presidential Directives
                     and the Federal Information Security Management Act of 2002 (FISMA).
                     SSA has several other components throughout the organization that handle
                     systems security, including the Ofﬁce of Information Technology Security
                     Policy within the Ofﬁce of the Chief Information Ofﬁcer.

                     Homeland Security Presidential Directive 7 requires that all Federal
                     departments and agency heads identify, prioritize, assess, remediate,
                     and protect their respective critical infrastructure and key resources.
                     OMB provided guidance to Federal departments and agencies on how to
                     prepare plans to protect physical and cyber critical infrastructure and key
                     resources and to complete these plans by July 31, 2004. We have worked
                     closely with SSA to help meet these requirements. The Agency plans must
                     address identiﬁcation, prioritization, protection, and contingency planning,
                     including the recovery and reconstitution of essential capabilities.

                     One important issue in systems security is restricting physical access to the
                     Agency’s systems and data. We reported on physical security problems at
                     several hearing ofﬁces and noted that non-SSA employees were allowed
                     inappropriate access to secured areas. Though the managers at these
                     sites took prompt action to remedy the security breaches, we believe the



page 42   •   Management Issues
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



same security concerns may be present at other hearing ofﬁces. However,
because our observations were limited to only a few ofﬁces, we do not know
how pervasive these security breaches may be. We plan to better assess
OHA’s vulnerabilities in this area.

In addition, under FISMA, we independently evaluate SSA’s security
program. We also monitor the Agency’s efforts and progress on the
Expanded Electronic Government initiative of the PMA. Systems security
is a key component of this initiative, and we are working with the Agency
to resolve outstanding issues so it can get to green on the Electronic
Government Scorecard.

Our audit work on critical infrastructure and systems security issues in this
reporting period included the following.

FY 2004 Evaluation of SSA’s Compliance with FISMA

Our objective was to determine whether SSA’s overall security program and
practices complied with the requirements of the FISMA. We also reviewed
the Agency’s efforts to reach green on the security portion of the expanded
electronic Government (eGovernment) initiative of the PMA. Our analysis
included an evaluation of SSA’s plan of action and milestones, certiﬁcation
and accreditation (C&A), and systems inventory processes.

FISMA requires Federal agencies to create protective environments for their
information systems. It does so by creating a framework, which includes
annual information technology (IT) security reviews, vulnerability reporting,
and remediation planning.

During our FY 2004 FISMA evaluation, we determined that SSA has
generally met the requirements of FISMA and the security portion of the
PMA eGovernment initiative. SSA has made improvements over the past
year to further strengthen its compliance with FISMA. The Agency has
worked diligently to reach green on the PMA’s eGovernment initiative.

We recommended SSA:

  • Continue to ensure that the Automated Security Self-Evaluation and
    Remediation Tracking system is in compliance with the Agency’s policies
    and properly identiﬁes, tracks, and reports system deﬁciencies.

  • Create policy to ensure that the systems inventory is maintained and
    accurately reﬂects the current systems and subsystems operated by
    SSA.

  • Continue to ensure that C&As are properly updated every 3 years or
    when a signiﬁcant change occurs and new C&As are prepared for any
    new major system.



                                                                 Management Issues • page 43
              Semiannual Report to Congress                       April 1, 2004 — September 30, 2004



                       • Continue to implement a methodology to track and monitor IT security
                         training and awareness.

                       • Continue to implement a complete and coordinated continuity of
                         operations plan for the Agency, which is tested on a regular basis.

                     Congressional Response Report: Security of SSA’s National
                     Computer Center Back-up Tapes and Records
                     At the request of Congressman Earl Pomeroy, Ranking Minority Member,
                     Subcommittee on Oversight, House Committee on Ways and Means, we
                     initiated a review of the security SSA’s National Computer Center (NCC)
                     back-up tapes and records located at an off-site vault facility. His speciﬁc
                     concerns were:

                       • Security in the storage of SSA back-up tapes and records.

                       • The current contractor’s compliance with established SSA and industry
                         security standards.

                       • The process recently used by SSA to award the off-site storage of
                         magnetic media contract to the incumbent contractor.

                     Our objective was to address the issues raised by Congressman Pomeroy
                     regarding SSA’s arrangement for storing NCC back-up tapes and records at
                     an off-site vault facility. As a result of the review, we determined that the level
                     of security afforded SSA’s back-up tapes stored at a vendor’s off-site vault
                     storage facility is sufﬁcient, and the current contractor is in compliance with
                     established SSA and industry security standards. Additionally, SSA followed
                     applicable laws, regulations, and policies and procedures in awarding the
                     contract to the incumbent contractor. We provided no recommendations.

                     SSA’s Monitoring of Potential Employee Systems Security
                     Violations

                     Our objectives were to examine the processes that SSA has in place to
                     review potential employee system security violations in a timely and proper
                     manner and to limit the Agency’s exposure to employee misuse of its
                     systems. We also examined the process used to refer violations to OIG.

                     We found that SSA has a process in place to review potential employee
                     systems security violations and has taken steps to limit its exposure to
                     employee misuse of its systems. These steps include, but are not limited
                     to:

                       • Establishment of Sanction Penalties.




page 44   •   Management Issues
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



  • Establishment of policies and procedures for reviewing potential
    employee systems security violations in the Information Systems
    Security Handbook and the Integrity Review Handbook.

  • Development of the Comprehensive Integrity Review Process system
    to alert managers of potential problems.

  • Efforts to analyze trends in applying sanctions.

  • Referring cases to OIG.

  • Periodic training and reminders for the reviewers.

While we believe that the Agency, and in particular SSA’s Ofﬁce of
Operations, is making a concerted effort to address employee systems
security violations, there are areas within the integrity review process that
need improvement. During our review we found:

  • Certain potential security violation cases were not referred to OIG.

  • Certain violations were not addressed in a              timely   manner
    in conformance with the integrity review process.

  • There is no centralized system or existing process to track employee
    systems security violations.

  • Sanction documentation was not located for all cases.

To strengthen SSA’s integrity review process and reduce its vulnerability to
employee systems security violations, we recommended that SSA:

  • Establish policies and procedures on retaining supporting documentation
    for potential misuse or potential fraud employee systems security
    violations.

  • Maintain supporting documentation for all potential misuse or potential
    fraud employee systems security violations.

  • Provide OIG periodic access to the potential misuse or potential fraud
    employee systems security violations.

  • Continue to ensure all integrity reviews are conducted in a more timely
    and in-depth manner.

SSA agreed with our recommendations.




                                                                 Management Issues • page 45
              Semiannual Report to Congress                   April 1, 2004 — September 30, 2004



                     The Impact on Network Security of SSA’s Operating Systems’
                     Conversion

                     Our objective was to determine if SSA’s conversion from the Windows NT
                     operating system, increased, maintained, or decreased network security.

                     SSA migrated its network environment from one based on Windows NT to
                     one based on Windows 2000. SSA decided to migrate ahead of schedule
                     to the next operating systems, Windows 2003/XP. With each conversion,
                     the Agency has tried to take advantage of newer, improved, and more
                     developed operating systems to increase network security.

                     We found that SSA continues to migrate its network environment from one
                     based on the Microsoft Windows NT operating system to one based on the
                     newer Microsoft operating systems, Windows 2003 and Windows XP. While
                     each of the conversions has increased network environment security, the
                     problems the Agency encountered during these conversions prevented
                     network security from reaching the full potential available in its newer
                     operating systems.

                     We recommended and SSA agreed to require:

                       • New application programs installed on SSA’s network structure be
                         developed to operate under the high security conﬁguration settings
                         originally intended for SSA’s network environment.

                       • Applications carried over from older operating system environments
                         be replaced or modiﬁed when incompatible with newer, more stringent
                         security conﬁgurations.

                       • Network applications to undergo adequate Integration and
                         Environmental testing to meet security requirements under operating
                         systems using high security conﬁguration settings.


                     Investigative Challenge -- Systems Security
                     The protection of critical SSA systems security also requires constant
                     investigative vigilance. Though the vast majority of SSA employees are
                     reliable and committed public servants, even small amounts of employee
                     misuse of SSA systems could undercut their integrity. During this reporting
                     period, the Electronic Crimes Team of OI’s Critical Infrastructure Division
                     investigated several instances of potentially compromising misuse of
                     Agency systems of varying degrees of severity. The following case is an
                     example of our successful investigative work:




page 46   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



Investigation: SSA Employee Creates, Pays Fake Claimants

SSA suspected an employee was creating fraudulent claimants so she could
collect beneﬁt payments. Our Dallas Field Division investigators determined
that she created 37 ﬁctitious identities over a 10-year period, assigned
them SSNs, and authorized $1,266,825 in SSA beneﬁts to be paid to them.
A co-conspirator controlled bank accounts and Post Ofﬁce boxes used in
the scheme, and they split the proceeds. The employee lost her job and
pleaded guilty to conspiracy to commit wire fraud. In her plea agreement,
she forfeited the entire balance of her Federal Employment Retirement
System account. She was sentenced to 46 months in prison and ordered
to pay $1,266,825 in restitution to SSA. Her accomplice pleaded guilty to
conspiracy to defraud the Government, and is awaiting sentencing.




                                                                Management Issues • page 47
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                    Issue 5: Internal Control Environment and
                    Performance Measures
                    Internal control comprises the plans, methods, and procedures used to
                    meet missions, goals, and objectives. Internal controls help safeguard
                    assets and prevent and detect errors and fraud. Assessing the internal
                    control environment is important since internal control is a critical part of
                    performance-based management. SSA’s internal control environment helps
                    its managers achieve desired results through effective stewardship of public
                    resources.

                    SSA is responsible for implementing policies for the development of disability
                    claims under the DI and SSI programs. Disability determinations under
                    both DI and SSI are performed by DDSs in each State in accordance with
                    Federal regulations. In carrying out its obligation, each DDS is responsible
                    for determining claimants’ disabilities and ensuring adequate evidence is
                    available to support its determinations. To assist in making proper disability
                    determinations, each DDS is authorized to purchase medical examinations,
                    x-rays, and laboratory tests on a consultative basis to supplement evidence
                    obtained from the claimants’ physicians or other treating sources. There
                    are 52 DDSs located in each of the 50 States, the District of Columbia,
                    and Puerto Rico. SSA reimburses the DDS for 100 percent of allowable
                    expenditures up to its approved funding authorization. In FY 2003,
                    SSA allocated over $1.6 billion to fund DDS operations.

                    During FYs 2000 through 2003, we conducted 15 DDS administrative cost
                    audits. In 13 of the 15 audits, internal control weaknesses were identiﬁed.
                    For example, we reported that improvements were needed to ensure Federal
                    funds were properly drawn and payments to medical providers were in
                    accordance with Federal regulations. The lack of effective internal controls
                    can result in the mismanagement of Federal resources and increase the risk
                    of fraud.

                    In 6 of the 15 DDS administrative cost audits, we reported unallowable
                    indirect costs totaling about $12.3 million. As a result, we initiated a
                    separate review of SSA’s oversight of indirect costs. We reported that SSA
                    needed to improve its oversight of indirect costs claimed by DDSs to ensure
                    SSA funds obligated by DDSs through the indirect cost process beneﬁted
                    SSA’s disability programs and the costs were equitably distributed to its
                    programs.

                    Congress, external interested parties, and the general public need sound
                    data to monitor and evaluate SSA’s performance. SSA relies primarily on
                    internally-generated data to manage the information it uses to administer
                    its programs and report to Congress and the public. The necessity for good
                    internal data Government wide has resulted in the passage of several laws,


page 48   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



including the Government Performance and Results Act. In addition to the
legislation calling for greater accountability within the Government, the PMA
has focused on the integration of the budget and performance measurement
processes. The PMA calls for agencies, over time, to identify high quality
outcome measures, accurately monitor the performance of programs, and
begin integrating this presentation with associated cost.

SSA sets forth its mission and strategic goals in strategic plans, establishes
yearly targets in its annual performance plan, and reports on its
performance annually. Each year, we conduct audits to assess the internal
control environment over SSA’s performance measures. The objective of
this work is to assess the reliability of SSA’s performance data and evaluate
the extent to which SSA’s performance measures describe its planned and
actual performance meaningfully.

Assessing the control environment over DDSs and SSA’s performance
measures helps to ensure that the Agency is properly managing its
resources to meet it mission.

Management Advisory Report: Summary of Single Audit Oversight
Activities for May 2003 through April 2004

Our objective was to summarize categories of internal control weaknesses
at DDSs reported in single audits and identiﬁed during our single audit
oversight activities. To accomplish our objective, we reviewed 54 single
audits covering 51 DDSs and categorized ﬁndings that were identiﬁed as
directly affecting DDS operations and crosscutting ﬁndings that potentially
affect DDS operations. Of the 54 single audits, 12 reported direct ﬁndings
and 46 reported crosscutting ﬁndings.

Nine of the 12 single audits with direct ﬁndings reported States’
noncompliance with the terms of the Cash Management Improvement Act
(CMIA). For example:

  • The Georgia Department of Labor drew funds in excess of allowable
    expenditures.

  • The Illinois Department of Human Services (IDHS) did not review or
    recertify the accuracy of clearance patterns identiﬁed in the CMIA
    agreement for SSA disability programs. Failure to evaluate and recertify
    the clearance pattern could result in the inaccurate calculation of IDHS
    interest obligation to the Department of the Treasury or the Federal
    interest liability to the State.

  • The New Hampshire State Treasury Department improperly excluded
    the SSI program from the CMIA agreement. Therefore, formal




                                                                  Management Issues • page 49
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                          procedures for drawing funds were not established and could result in
                          interest obligations not being properly reported.

                     In addition, between August 1998 and April 2004, 78 single audits reported
                     ﬁndings that directly impacted DDS operations. Of the 78 single audits,
                     40 audits (or 51 percent) reported cash management ﬁndings. The frequency
                     of cash management ﬁndings reported in the single audits indicates a
                     systemic weakness in the States’ management controls over Federal
                     cash draws. The lack of proper cash management controls can result in
                     unallowable cash draws and/or improper payment of interest liabilities from
                     SSA’s disability trust fund. The lack of State controls over cash management
                     warrants the Commissioner’s attention. Therefore, we recommended that
                     the Agency remind DDSs and their State parent agencies to ensure proper
                     controls are in place for cash draws of Federal funds.

                     SSA agreed with our recommendation.

                     Disability Determination Administrative Cost Audits

                     During this reporting period, we performed DDS administrative cost audits
                     for the States of Massachusetts, Michigan, Minnesota, Montana, Nevada,
                     Wyoming and the District of Columbia. The objectives of these audits
                     were to evaluate internal controls over the accounting and reporting of
                     administrative costs, to determine whether costs claimed were allowable,
                     and funds were properly drawn. We also performed separate audits of
                     indirect costs claimed by the Connecticut, New York, and Puerto Rico DDS.

                     We had ﬁndings and made recommendations on:

                       • Ineffective cash management practices.

                       • Excessive consultative examination payments.

                       • Unallowable ofﬁce space costs.

                       • Internal control weaknesses involving accounting for and reporting of
                         administrative costs.

                     We also completed a summary of 15 State DDS administrative cost audits
                     performed in FYs 2000 through 2003. The objective was to summarize
                     common ﬁndings and recommendations reported by 15 DDS administrative
                     cost audits. Two of the 15 audits did not contain any ﬁndings. In the
                     remaining 13 audits, we reported issues, which directly impact the
                     efﬁciency and effectiveness of the DDS ﬁscal and administrative operations.
                     These ﬁndings concern unallowable administrative costs and noncompliance
                     with Federal regulations and SSA’s Program Operations Manual System.
                     The previously reported ﬁndings were summarized by dollar impact on
                     SSA’s funding. They were:



page 50   •   Management Issues
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General



  • Indirect costs.

  • Cash management.

  • Consultative Examination.

  • All other non-personnel costs.

  • Crosscutting issues.

The audit ﬁndings and recommendations in the Summary of State DDS
Administrative Cost Audits completed in FY 2000 through 2003 reafﬁrm
the need for improvement in SSA’s oversight of the DDS ﬁscal operations.
As a result, we plan to conduct an oversight audit in FY 2005, to assist
SSA management with improving the Agency’s oversight capability.

Performance Indicator Audits: Audits of SSA’s Performance Data

We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate
SSA’s performance indicators established to comply with GPRA. For each
performance indicator, PwC’s objectives were to do the following:

  • Test critical controls over the data generation and calculation processes
    for the speciﬁc performance indicator.

  • Assess the overall adequacy, accuracy, reasonableness, completeness,
    and consistency of the performance indicator and supporting data.

  • Determine whether each performance indicator provides meaningful
    measurement of the program and the achievement of its stated
    objectives.

During FY 2004, we released 4 audit reports that contained the results of
PwC’s work. The reports include the following:

  • Performance Indicator Audit: Management Information Systems
    Development and Protection

  • Performance Indicator Audit: President’s Management Agenda Related
    Initiatives

  • Performance Indicator Audit: Earnings Suspense File

  • Performance Indicator Audit: Employment for Disabled Beneﬁciaries

These 4 reports contained the results of audits of 10 SSA performance
measures. PwC noted areas for improvement in all 4 reports. Several of the
ﬁndings involved the lack of policies and procedures:

  • Used to prepare and disclose the results of the individual performance
    indicators on a consistent basis.



                                                                 Management Issues • page 51
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                       • Related to the retention of data used to calculate indicator results.

                       • That require indicator owners to ensure each performance indicator is
                         fully described in a complete, accurate, and explicit manner within the
                         Performance and Accountability Report.

                     In response to our audit reports, the Agency agreed with 17 of 20
                     recommendations and is preparing corrective action.




page 52   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



Issue 6: Service Delivery
One of SSA’s goals is to deliver high-quality “citizen-centered” service.
This goal encompasses traditional and electronic services to applicants for
beneﬁts, beneﬁciaries and the general public. It includes services to and from
States, other agencies, third parties, employers, and other organizations,
including ﬁnancial institutions and medical providers. This area includes
basic operational services, and two of the greatest challenges in the area
are the representative payee process and managing human capital.


Representative Payee Challenges
A speciﬁc challenge in this area is maintaining the integrity of the
representative payee process. When SSA determines a beneﬁciary cannot
manage his/her beneﬁts, SSA selects a representative payee, who must
use the payments for the beneﬁciary. Another area of concern is the
Representative Payment Program. SSA reported that there are about
5.4 million representatives payees who manage about $44.8 billion in
beneﬁts for about 6.9 million beneﬁciaries. SSA must provide appropriate
safeguards to ensure they meet their responsibilities to the beneﬁciaries
they serve.

Since FY 2001, we have completed numerous audits of representative
payees. Our audits identiﬁed:

  • Deﬁciencies with the ﬁnancial management of, and accounting for,
    beneﬁt receipts and disbursements.

  • Vulnerabilities in safeguarding of beneﬁciary payments.

  • Poor monitoring and reporting to SSA of changes in beneﬁciary
    circumstances.

  • Inappropriate handling of beneﬁciary-conserved funds.

  • Improper charging of fees.


Human Capital Challenges
SSA, like many other Federal agencies, is being challenged to address
its human capital shortfalls. In January 2001, GAO added strategic
human capital management to its list of high-risk Federal programs and
operations. In addition, Strategic Management of Human Capital is one of
ﬁve Government-wide initiatives contained in the PMA.

By the end of 2012, SSA projects its DI and Old-Age and Survivors Insurance
(OASI) beneﬁt rolls will increase by 35 percent and 18 percent, respectively.
Further, SSA’s Retirement Wave Analysis 2004-2013 report indicates that


                                                                  Management Issues • page 53
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004



                     57 percent of its employees will be eligible to retire by 2013.This retirement
                     wave will result in a loss of institutional knowledge that may affect
                     SSA’s ability to deliver quality service to the public.

                     Along with the workload increase, the incredible pace of technological
                     change will have a profound impact on both the public’s expectations and
                     SSA’s ability to meet those expectations. In the face of these challenges,
                     technology is essential to achieving efﬁciencies and enabling employees
                     to deliver the kind of service that every claimant, beneﬁciary and citizen
                     needs and deserves.

                     The critical loss of institutional skills and knowledge, combined with greatly
                     increased workloads at a time when the baby-boom generation will require
                     its services must be addressed by succession planning, strong recruitment
                     efforts, and the effective use of technology.

                     SSA continues to score “green” in progress in Implementing the President’s
                     Management Agenda” on the OMB Scorecard. In June 2004, SSA improved
                     its Strategic Management of Human Capital rating status from “yellow” to
                     “green”.

                     Our audit work on service delivery issues in this reporting period included
                     the following.

                     SSA’s Representative Payee Selection Process

                     In the course of our representative payee work, we conducted an audit
                     of SSA’s representative payee selection process to determine whether the
                     Agency’s procedures ensured that beneﬁciaries who were incapable of
                     managing or directing the management of their ﬁnances were paid through
                     representative payees.

                     A representative payee is a person, agency, organization, or institution
                     selected to receive and manage beneﬁts on behalf of a beneﬁciary. Based on
                     a review of the medical, legal and lay evidence (including contact with the
                     beneﬁciary and information from individuals familiar with the beneﬁciary),
                     SSA will determine if a beneﬁciary needs a representative payee.

                     Our review found that SSA adequately determined that representative
                     payees were not needed and direct payment was appropriate in about
                     89.5 percent of our sample cases. However, we found that about 9 percent
                     of the cases were not worked properly. The Agency’s procedures did not
                     ensure that all beneﬁciaries who were incapable of managing or directing
                     the management of their ﬁnances were paid through representative payees.
                     If incapable beneﬁciaries are paid directly, their basic needs (food, clothing,
                     and shelter) may not be met. We did not ﬁnd a process in place to ensure
                     that capability determinations were made for every case in which there was



page 54   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



an indication that the beneﬁciary was not able to manage his or her own
beneﬁts.

Also, we did not ﬁnd a process in place to ensure that beneﬁciaries’ claims
were updated when representative payees were appointed. Based on our
review of 200 sample cases, we estimate that at least 17,035 beneﬁciaries
were paid at least $342 million, which should have been paid through
representative payees.

Generally, SSA agreed with our recommendations.

Creative Alternatives – An Organizational Representative Payee for
SSA

Our objectives were to determine whether Creative Alternatives (CA):

  • Had effective safeguards over the receipt and disbursement of
    Social Security beneﬁts.

  • Ensured Social Security beneﬁts were used and accounted for in
    accordance with SSA policies and procedures.

We determined CA generally had effective safeguards over the receipt
and disbursement of beneﬁt payments and ensured the payments were
used and accounted for in accordance with SSA’s policies and procedures.
However, we identiﬁed the following 3 areas where CA could improve its
performance as a representative payee:

  • Interest earned was not allocated to 13 beneﬁciaries.

  • Separate bank accounts were not established for beneﬁciaries.

  • Direct deposit was not used.

We also found that 2 beneﬁciaries for whom CA served as the representative
payee were not recorded in SSA’s Representative Payee System (RPS).
However, these beneﬁciaries were receiving payments according to
SSA’s records and had selected CA as their representative payee.

We recommended that SSA:

  • Request that CA allocate interest to the conserved funds of
    SSA beneﬁciaries.

  • Request that CA establish a separate bank account for beneﬁciary
    payments.

  • Request that CA establish direct deposit for all beneﬁciaries in its
    care.




                                                                Management Issues • page 55
              Semiannual Report to Congress                  April 1, 2004 — September 30, 2004



                       • Correct RPS to include all beneﬁciaries for whom CA was selected as a
                         representative payee.

                     Both SSA and CA agreed with our recommendations.

                     Mental Health Center of Boulder County, Inc. – An Organizational
                     Representative Payee for SSA

                     Our objectives were to determine whether Mental Health Center of Boulder
                     County, Inc. (MHCBC):

                       • Had effective safeguards over the receipt and disbursement of
                         Social Security beneﬁts.

                       • Ensured that Social Security beneﬁts were used and accounted for in
                         accordance with SSA policies and procedures.

                     We determined MHCBC generally had effective safeguards over the receipt
                     and disbursement of beneﬁt payments and ensured the payments were
                     used and accounted for in accordance with SSA’s policies and procedures.
                     However, we identiﬁed the following areas where MHCBC could improve its
                     performance as representative payee:

                       • Administration of the beneﬁciary collective bank account.

                       • Timely cancellation of unnegotiated checks issued on behalf of
                         beneﬁciaries.

                       • Notifying SSA that it received Social Security payments on behalf of
                         individuals for whom MHCBC was not the designated representative
                         payee.

                       • Notifying SSA of changes in beneﬁciary circumstances.

                       • Notifying SSA when SSI beneﬁciaries’ conserved funds exceed resource
                         limits.

                     We also determined that information in SSA’s RPS was not always accurate
                     and that SSA was not able to provide us with all Representative Payee
                     Reports for the beneﬁciaries included in our review.

                     We recommended that SSA:

                       • Direct MHCBC to establish a collective bank account.

                       • Ensure that MHCBC cancels unnegotiated checks issued during
                         Calendar Year (CY) 2002.

                       • Ensure that MHCBC no longer negotiates Social Security payments to
                         beneﬁciaries for whom MHCBC is not the representative payee.




page 56   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



  • Direct MHCBC to establish procedures to identify and report changes in
    beneﬁciary circumstances to SSA in a timely manner.

  • Direct MHCBC to develop procedures to identify and report to SSA any
    SSI recipients with excess resources in a timely manner.

  • Correct the RPS to consolidate MHCBC’s multiple listings and account
    for all individuals for whom MHCBC is listed as the representative
    payee.

Both SSA and MHCBC agreed with our recommendations.

Collection of OASDI Overpayments to Representative Payees for
Deceased Beneﬁciaries

Our objective was to assess the effectiveness of SSA’s OASDI overpayment
collection efforts for payments issued to representative payees after the
beneﬁciary’s death. We also reviewed overpayments made to these same
representative payees before the beneﬁciary’s death.

SSA relies on the representative payees to report events to SSA that may
affect the individual’s entitlement. These events can include marriage, a
change in living arrangements, death, or incarceration. Overpayment of
beneﬁts may occur due to the representative payee’s failure to notify SSA of
events that affect a beneﬁciary’s payment. It is the Agency’s responsibility
to identify the overpayment and pursue recovery of the debt. Recovery of
beneﬁciaries’ payments becomes more difﬁcult when they are issued to
representative payees.

SSA has used debt collection tools to recover millions in OASDI overpayments
from beneﬁciaries. However, we found SSA did not refer delinquent OASDI
representative payee overpayment debts totaling $2.3 million to the
Department of the Treasury’s (Treasury) Financial Management Service.
Additionally, SSA was not reporting this type of delinquent debt to credit
bureaus. Moreover, the Agency has established overpayment control
records for individual representative payees where payment of more than
the correct amount is made after the beneﬁciary’s death, as required by
law.

To improve SSA’s controls over collecting OASDI overpayments, we made
6 recommendations to the Agency regarding:

  • Referring delinquent debt to Treasury and credit bureaus.

  • Assessing delinquent representative payees’ suitability to continue to
    serve as payees.

  • Linking the Representative Payee System to other SSA records.



                                                                Management Issues • page 57
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                     SSA agreed to take action on all our recommendations.

                     SSA’s Regional Ofﬁce Procedures for Addressing Employee-Related
                     Allegations

                     SSA receives various types of allegations related to its programs,
                     the misuse of SSNs and employee conduct. Some examples of
                     employee-related allegations include time and attendance, service
                     issues, and theft of Government property. SSA receives allegations from
                     employees, the public, and OIG. Allegations concerning SSA employees are
                     signiﬁcant because of the potential monetary losses to SSA’s programs and
                     the corresponding negative public impact.

                     SSA has management controls in place with respect to the development
                     and resolution of employee related allegations. To determine the validity
                     of allegations, SSA is required to obtain sufﬁcient evidence to support or
                     remove suspicion that criminal violations may have been committed.

                     During this reporting period, we completed reviews of procedures for
                     addressing employee-related allegations in Regions II, III, IV, V, VIII,
                     and IX, and made a total of 23 recommendations for corrective action.
                     The objectives of these reviews were:

                       • To evaluate the adequacy of SSA’s policies and procedures for
                         addressing employee-related allegations.

                       • To determine how well SSA complied with these policies and
                         procedures.

                       • To determine whether SSA referred all employee-related allegations
                         warranting further investigation to the OIG.

                     Our ﬁndings and recommendations related to:

                       • Lack of maintenance of documentation supporting the recording,
                         investigation, and resolution of employee-related allegations.

                       • Instances where potential criminal violations were not forwarded to
                         OIG .

                     In response to our recommendations, SSA management agreed to take
                     action to address the issues we identiﬁed.

                     The Effectiveness of Policies and Procedures Used to Identify
                     Incarcerated Representative Payees

                     Our objective for this review was to determine the effectiveness of policies
                     and procedures used to identify incarcerated representative payees.
                     SSA has policies and procedures in place that address the suitability of



page 58   •   Management Issues
April 1, 2004 — September 30, 2004                   SSA Ofﬁce of the Inspector General



incarcerated representative payees. An incarcerated individual is most
likely not in a position to serve, or continue to serve, as a representative
payee. SSA staff are required to verify prisoner information and whether
the individual is serving as a representative payee. Additionally, in March
2004, President Bush signed the Social Security Protection Act of 2004,
which when implemented, will authorize SSA to disqualify an individual
from serving as a representative payee if he or she has been convicted of
an offense resulting in more than 1 year of imprisonment.

We found that SSA personnel were not effectively implementing policies
and procedures established to identify incarcerated representative
payees. Based on our review of a sample of 200 representative payees
identiﬁed in the Prisoner Update Processing System as being incarcerated,
we estimated there were approximately 8,809 representative payees
who were incarcerated as of December 2003. We calculated that these
representative payees were responsible for managing approximately
$53 million on behalf of the beneﬁciaries they represented while they were
incarcerated. Further, if these incarcerated individuals continued serving
as representative payees, we projected that they would manage at least
$37.1 million during CY 2004.

We recommended and SSA agreed to:

  • Ensure staff complies with existing policies to identify all representative
    payees who have been incarcerated.

  • Complete and document suitability reviews when it determines
    a representative payee has been incarcerated.

  • Take measures       to   ensure   that   the   release   date   information
    is complete.

The following are examples of our successful investigations involving
representative payees during this reporting period:

Investigation: Sons Kill Father, Mother Claims Survivor Beneﬁts
The Lexington SSA ofﬁce reported that a mother ﬁled a fraudulent claim
for survivor beneﬁts for her two children. An investigation by our Atlanta
Field Division revealed that the woman had falsely stated the boys were
in her care—they were actually incarcerated for the murder of their
father. She was charged with four counts of theft by deception and given
5 years’ incarceration to be served consecutively with any sentence she
might receive in connection with her probation revocation. Restitution
was not ordered because she had already repaid the $13,921 fraud loss
to SSA.




                                                                    Management Issues • page 59
              Semiannual Report to Congress                      April 1, 2004 — September 30, 2004



                     Investigation: Bogus Caregiver Jailed for False Statement

                     Our Dallas Field Division investigated an allegation received from
                     the Corsicana, Texas Social Security ofﬁce. Our investigators found
                     a Texas woman had ﬁled for and received Title II beneﬁts on behalf of
                     a stepchild she falsely claimed was in her care. After pleading guilty
                     to making a false statement, the woman was sentenced to a year in prison
                     and ordered to pay SSA full restitution of $22,795.

                     Investigation: Representative Payee Sentenced for Fraud
                     A Mesa, Arizona man applied for children’s auxiliary beneﬁts for his daughter,
                     claiming he was her legal guardian and she lived with him. Our Los Angeles Field
                     Division investigators determined that the daughter lived with her biological
                     mother and stepfather in Dallas and had been adopted in 1993, terminating
                     the suspect’s parental rights. He received $41,286 on behalf of his daughter
                     between 1998 and 2003 when no payment was due. His sentence was
                     5 months in prison, and he was ordered to make full restitution to SSA.

                     Investigation: Jailed Representative Payee Takes Children’s Money
                     The Honolulu SSA ofﬁce reported that a representative payee did not have
                     custody of his four minor children and may have misused their survivors
                     beneﬁts. Our Los Angeles Field Division investigators revealed the man
                     was appointed representative payee for his children’s beneﬁts after their
                     mother died in an automobile accident. He had a lengthy criminal history,
                     was currently serving a 6 year state prison sentence for assault, and SSA
                     had suspended his own disability beneﬁts because of his incarceration.
                     His four minor children were removed from his care by Hawaii Child
                     Protective Services, but he continued to receive and misuse their beneﬁts.
                     He was sentenced to 5 years in prison and ordered to pay SSA full restitution
                     of $9,160.




page 60   •   Management Issues
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General



Civil Monetary Penalty and SAUSA Programs
OIG’s OCCIG administers the civil monetary penalty (CMP) enforcement
statutes under a delegation of authority from SSA’s Commissioner, which
allows OIG to impose CMPs against violators of sections 1129 and 1140
of the Social Security Act. Based on this delegation, we drafted and published
regulations, trained legal and investigative staff, and established a case
screening structure to implement this successful enforcement program.
OI’s investigative work provides an important contribution to these cases.

Using our CMP enforcement tools, we have imposed over $2.8 million
in penalties and assessments since FY 1998. Enactment of the Social
Security Protection Act of 2004 will expand CMP authority into additional
areas when its provisions go into effect in FY 2005.


False Statements Under Section 1129
Section 1129 prohibits making false statements or representations of
material facts in connection with obtaining or retaining beneﬁts or payments
under Titles II, VIII, or XVI of the Act. We are authorized to impose penalties
of up to $5,000 for each false statement or representation, as well as an
assessment of up to twice the amount of any resulting overpayment.

The following cases and table highlight our Section 1129 accomplishments
for this reporting period.



                    False Statements Under Section 1129 Results

                                                              April 1, 2004 -
                                      October 1, 2003 -       September 30,
                                                                                    Totals
                                       March 31, 2004              2004


 Cases Received                                26                    35                  61

 CMP Cases Initiated                           19                    17                  36

 CMP Cases Closed                              65                    24                  89

 CMP Penalties and Assessments              $309,458              $213,776        $523,234

 Number of Hearings Requested                   3                     3                  6




                                                                   Management Issues • page 61
              Semiannual Report to Congress                    April 1, 2004 — September 30, 2004



                     Investigation: SSI Beneﬁciary Lies to Keep Beneﬁts

                     A California home health aide worked for three different employers after
                     being granted SSI beneﬁts. SSA confronted her with documentation
                     conﬁrming that she was employed as a household employee during
                     an SSI redetermination interview. Nevertheless, the woman signed
                     statements continuing to misrepresent her employment so she could still
                     receive SSI beneﬁts. During the CMP action, she failed to cooperate with
                     ﬁnancial disclosure. OCCIG imposed a $15,000 CMP.

                     Investigation: Woman Hides Marriage, Income to Collect Beneﬁts

                     A Tulsa woman receiving SSI beneﬁts ﬁled documents with SSA claiming
                     she was not married and her husband was just her neighbor. Later
                     she acknowledged her husband but claimed that he had not worked for
                     several years. Our investigation revealed she had assisted her husband
                     in working under a different SSN to conceal his earnings. SSA is now
                     collecting the $41,000 overpayment, and OCCIG also imposed a $16,000
                     CMP.

                     Investigation: $106,024 Recovered From Long-term Beneﬁciary

                     A Wisconsin man, with a signiﬁcant criminal history awarded SSI beneﬁts
                     for schizophrenia, failed to seek psychiatric treatment. SSA continued the
                     beneﬁts for 14 years without conducting a Continuing Disability Review (CDR).
                     When a CDR was conducted, the subject, who owns a business, a house,
                     an investment property and two vehicles, told the consulting psychologist
                     he did not seek mental health treatment due to lack of transportation.
                     He also said his representative payee was a friend—although she is his wife—
                     knowing her income and his marital status would jeopardize SSI beneﬁts.
                     His attorney was unable to document that he suffered from schizophrenia.
                     OCCIG imposed $95,000 in CMPs and an $11,024 assessment, for a total
                     recovery of $106,024.


                     Misleading Advertising Under Section 1140
                     Section 1140 prohibits the use of SSA’s program words, letters, symbols,
                      or emblems in advertisements or other communications in a manner
                       that falsely conveys SSA’s approval, endorsement, or authorization.
                        Each misleading communication is subject to a maximum $5,000
                        penalty.

                       Our nationwide enforcement efforts in this area continue to send a
                      clear message to companies that deceive senior citizens and others
                     under the name and reputation of Social Security. As a direct result of




page 62   •   Management Issues
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General



OCCIG enforcement efforts, the number of Section 1140 complaints have
substantially decreased.

The following cases and table highlight our Section 1140 accomplishments
for this reporting period.


              Misleading Advertising Under Section 1140 Results

                              October 1, 2003 - April 1, 2004 -
                                                                              Totals
                               March 31, 2004 September 30, 2004

 Complaints Received                 31                     30                 61

 New Cases Opened                    14                      9                 23

 Cases Closed                        15                      6                 21

  No Violation                        9                      2                  11

  Voluntary Compliance                6                      4                  10

  Settlement Agreement
                                      0                      0                  0
  (of cases/amount)

  Penalty/Court Action
                                      0                      0                  0
  (of cases/amount)

  Hearings Requested                  0                      0                  0



Investigation: Company to Change Misleading Ads and Cards

A Bloomington, Indiana woman advertised her business—Social Security
Disability Claim Services—using the image of a Social Security card in ads
and business cards in a way that implied her company was connected with
or authorized by SSA. In response to a cease and desist letter, she replied
she was unaware she had been violating the Social Security Act. She also
sent us a revised business card and advertisement. On review, we concluded
Social Security Disability Claim Services was no longer in violation of
Section 1140, but we will continue monitoring for further complaints.

Investigation: e-mail Programming Puts “ssa.gov” on Messages

Celent Communications programmed their marketing e-mails to display
the sufﬁx for whatever server the mail was sent. An SSA employee
received an e-mail from Celent.Communications@ssa.gov advertising
“New Banking Reports” linked to a web site for more information


                                                                 Management Issues • page 63
              Semiannual Report to Congress                   April 1, 2004 — September 30, 2004



                    and forwarded the e-mail to us. Celent promised to stop sending e-mails to
                    SSA. We have received no other complaints about Celent’s e-mails and do
                    not anticipate that further action will be required in this case.

                    Investigation: “Social Security Claims” Signs Revised

                    When Beneﬁt Team Services (BTS) opened a new business next to a
                    Social Security ofﬁce, it posted large signs reading “Social Security Claims
                    and Appeals Center.” Alert Agency employees complained that the signs could
                    easily misdirect people seeking the SSA ofﬁce to BTS instead. We issued a
                    cease and desist letter under Section 1140. BTS altered the signs to read
                    “BTS Claims and Appeals Center.” We have received no other complaints.


                    Partnerships with U.S. Attorneys
                    Since 2001, OCCIG attorneys have served in several United States’
                    Attorneys’ Ofﬁces (USAO) as Special Assistant United States Attorneys
                    (SAUSA). This partnership enables us to have cases that are developed
                    by our investigators criminally prosecuted—cases that would normally
                    be declined due to the limited resources of the various USAOs.
                    OCCIG currently has a full-time SAUSA in Los Angeles, CA and
                    part-time SAUSAs in New Haven, CT and Memphis, TN. In addition,
                    OCCIG is wrapping up several criminal cases in Phoenix, AZ.

                    OCCIG will continue to explore the feasibility of the SAUSA program in other
                    areas of the country, furthering our statutory mission through this teamwork
                    among OI’s investigative efforts, OCCIG attorneys, and the USAOs.
                    SSA’s Ofﬁce of General Counsel also partners with U.S. Attorney’s
                    Ofﬁces in several major metropolitan areas further facilitating the
                    successful prosecution of OIG fraud cases. Examples of our successful
                    SAUSA prosecutions during this reporting period include the following:

                    SAUSA Prosecution: ATM Withdrawals Loot Bank Account

                    A Connecticut woman stole survivors beneﬁts from her deceased mother’s
                    account and failed to report the death to SSA or to the bank. The
                    defendant admitted she continued ATM withdrawals for more than a year
                    and converted her mother’s Social Security beneﬁts to her own use. As
                    a result of a Boston Field Division investigation and SAUSA prosecution in
                    New York, she was sentenced to a 5-year term of probation and ordered to pay
                    $11,871 in restitution.

                    SAUSA Prosecution: Woman Steals Beneﬁts After Mother’s Death

                    As a result of an Atlanta Field Division investigation and SAUSA prosecution
                    in Tennessee, a woman was identiﬁed in SSA records with a listed date



page 64   •   Management Issues
April 1, 2004 — September 30, 2004              SSA Ofﬁce of the Inspector General



of death but was still receiving beneﬁts. Our investigators determined
that her daughter withdrew $46,201 to which she was not entitled from
a joint bank account where her deceased mother’s beneﬁts were deposited.
After pleading guilty to bank fraud, she was sentenced to
4 months incarceration and ordered to pay full restitution.




A Special Thank You
The diligent work, outstanding efforts, and many contributions of
our entire OIG staff make the numerous accomplishments highlighted in
this Semiannual Report possible. We would like to thank them for their
dedicated spirit and many successes.



                                                              Management Issues • page 65
Semiannual Report to Congress   April 1, 2004 — September 30, 2004
April 1, 2004 — September 30, 2004    SSA Ofﬁce of the Inspector General




                         Appendices
Semiannual Report to Congress   April 1, 2004 — September 30, 2004
April 1, 2004 — September 30, 2004                                       SSA Ofﬁce of the Inspector General




Appendix A

Resolving Audit Recommendations
The following chart summarizes Social Security Administration’s (SSA) responses to our
recommendations for the recovery or redirection of questioned and unsupported costs.
Questioned costs are those costs that are challenged because of a violation of law,
regulation, etc. Unsupported costs are those costs that are questioned because they are
not justiﬁed by adequate documentation. This information is provided in accordance with
Public Law (P.L.) 96-304 (the Supplemental Appropriation and Recession Act of 1980) and the
Inspector General Act of 1978, as amended.


                          Reports with Questioned Costs for the Reporting Period
                                April 1, 2004 through September 30, 2004

                                                                        Number    Value Questioned          Value Unsupported

     A. For which no management decision had been made by the
        commencement of the reporting period.                             8            $6,698,737                $3,365,938

     B. Which were issued during the reporting period.                   10a     $1,486,828,002                     $432,825

                          Subtotal (A + B)                                18     $1,493,526,739                  $3,798,763

        Less:


     C. For which a management decision was made during the
        reporting period.                                                14b          $17,034,002                $1,138,213

        i.    Dollar value of disallowed costs.                           12          $16,380,381                $1,138,213

        ii.   Dollar value of costs not disallowed.                       2               $653,621                            $0

     D. For which no management decision had been made by the
        end of the reporting period.                                      7      $1,476,492,737                  $2,660,550


a.    See Reports with Questioned Costs in Appendix B of this report.
b.    Administrative Costs Claimed by the Michigan Disability Determination Services (A-05-03-13036, 5/7/04) contained dollars that
      were disallowed and dollars not disallowed. Additionally, a management decision was made for only a portion of the questioned
      costs contained in the reports, Administrative Costs Claimed by the Michigan Disability Determination Services (A-05-03-13036,
      5/7/04) and Audit of the Community Counseling Centers of Chicago – A Fee-for-Service Representative Payee for the Social
      Security Administration (A-13-03-13002, 7/15/03).




                                                                                                     Appendices         •   page 69
                    Semiannual Report to Congress                                April 1, 2004 — September 30, 2004




  The following chart summarizes SSA’s response to our recommendations that funds be put
  to better use through cost avoidances, budget savings, etc.


                Reports with Recommendations that Funds Be Put to Better Use for the
                     Reporting Period April 1, 2004 through September 30, 2004

                                                                                 Number           Dollar Value

       A. For which no management decision had been made by the
          commencement of the reporting period.                                     2              $108,609,861

       B. Which were issued during the reporting period.                            5a             $347,748,511

                           Subtotal (A + B)                                         7              $456,358,372

          Less:


       C. For which a management decision was made during the reporting
          period.

           i.   Dollar value of recommendations that were agreed to by
                management.


                (a) Based on proposed management action.                            5              $114,179,024

                (b) Based on proposed legislative action.                           0                            $0

          ii.   Dollar value of costs not agreed to by management.                  1              $341,969,487

                           Subtotal (i + ii)                                        6              $456,148,511

       D. For which no management decision had been made by the end of the
          reporting period.                                                         1                   $209,861


  a.    See Reports with Funds Put to Better Use in Appendix B of this report.




page 70         •   Appendices
April 1, 2004 — September 30, 2004                           SSA Ofﬁce of the Inspector General




Appendix B

Reports Issued

                           Reports with Non-Monetary Findings
                          October 1, 2003 through March 31, 2004

     CIN                                            Report                                     Issue Date

                 Management Advisory Report: Single Audit of the State of Maryland for the
 A-77-04-00001                                                                                    10/23/03
                 Fiscal Year Ended June 30, 2002

                 Management Advisory Report: Single Audit of the State of Illinois for the
 A-77-04-00002                                                                                    10/23/03
                 Fiscal Year Ended June 30, 2002

 A-03-04-24049   Congressional Response Report: Title II Beneﬁciaries with Military Earnings      10/27/03


 A-03-03-13026   Follow-Up Review of Employers with the Most Suspended Wage Items                 10/30/03

                 Inspector General Statement on the Social Security Administration’s Major
 A-02-04-14034                                                                                     11/6/03
                 Management Challenges

 A-15-03-13068   Oversight of the Fiscal Year 2003 Financial Statement Audit                      11/10/03

                 Congressional Response Report: Operations at the Social Security
 A-13-03-23091                                                                                    11/14/03
                 Administration’s Milwaukee, Wisconsin, Ofﬁce of Hearings and Appeals

                 Management Advisory Report: Single Audit of the State of California for the
 A-77-04-00003                                                                                    11/19/03
                 Fiscal Year Ended June 30, 2002

                 Management Advisory Report: Single Audit of the State of Colorado for the
 A-77-04-00004                                                                                     12/2/03
                 Fiscal Year Ended June 30, 2002

 A-03-02-22076   Utility of Older Reinstated Wages from the Earnings Suspense File                12/17/03

                 Management Advisory Report: The Social Security Administration’s
 A-05-03-23056                                                                                    12/17/03
                 Procedures for Enumerating Foreign Students

                 Management Advisory Report: Fiscal Year 2003 Quick Response Activities
 A-13-04-14055                                                                                    12/17/03
                 Summary Report

                 Performance Audit of the Social Security Administration’s Main Complex
 A-15-03-23043                                                                                    12/17/03
                 Guard Contract

 A-08-04-24079   Management Advisory Report: Security Features on the Social Security Card        12/18/03

                 Congressional Response Report: Chicago Regional Ofﬁce of Hearings and
 A-13-04-24045                                                                                     1/5/04
                 Appeals Claimant Medical Files

 A-12-02-12015   Appeals Council Process Improvement Action Plan                                   1/21/04

                 Management Advisory Report: Single Audit of the State of New York for the
 A-77-04-00005                                                                                     1/21/04
                 Fiscal Year Ended March 31, 2002

                 Internal Control Review over the Processing of Social Security Number Cards
 A-15-03-23025                                                                                     1/29/04
                 (Limited Distribution)

                 Management Advisory Report: Current Practices in Electronic Records
 A-04-04-24004                                                                                     2/3/04
                 Authentication


                                                                                      Appendices    •   page 71
                Semiannual Report to Congress                              April 1, 2004 — September 30, 2004




                                Reports with Non-Monetary Findings
                               October 1, 2003 through March 31, 2004

          CIN                                           Report                                     Issue Date


    A-12-03-13039    Operations of the Ofﬁce of Hearings and Appeals Megasite                        2/3/04

                     Controls over the Social Security Administration’s Processing Center Action
    A-14-03-23076                                                                                    2/3/04
                     Control System

                     Management Advisory Report: Single Audit of the State of New Hampshire
    A-77-04-00006                                                                                    2/4/04
                     for the Fiscal Year Ended June 30, 2002

                     Management Advisory Report: Single Audit of the State of Georgia for the
    A-77-04-00007                                                                                   2/25/04
                     Fiscal Year Ended June 30, 2002

                     Congressional Response Report: Review of File Assembly Contracts at Ofﬁce
    A-07-04-24076                                                                                    3/3/04
                     of Hearings and Appeals

                     The Social Security Administration’s Regional Ofﬁce Procedures for
    A-06-03-13075                                                                                    3/8/04
                     Addressing Employee-Related Allegations in Region VI
                     Cabinet for Families and Children, Department for Community Based
    A-08-03-13084    Services, Division of Protection and Permanency - An Organizational            3/10/04
                     Representative Payee for the Social Security Administration

    A-14-04-14057    Evaluation of the Accelerated eDib System - Fifth Assessment                   3/10/04

                     The Social Security Administration’s Oversight of Indirect Costs Claimed by
    A-07-03-23086                                                                                   3/16/04
                     Disability Determination Services

                     Conserved Funds for Deceased Beneﬁciaries with Non-Related
    A-13-03-23085                                                                                   3/18/04
                     Representative Payees

                     Management Advisory Report: Single Audit of the State of Rhode Island for
    A-77-04-00008                                                                                   3/18/04
                     the Fiscal Year Ended June 30, 2002

                     Management Advisory Report: Single Audit of the State of Maine for the
    A-77-04-00010                                                                                   3/24/04
                     Fiscal Year Ended June 30, 2002

                     Interim Assistance Reimbursement to Los Angeles County, California, Under
    A-13-02-12039                                                                                   3/25/04
                     the Supplemental Security Income Program

                     Project Matrix Step Two: Analysis of the Social Security Administration’s
    A-14-04-24006                                                                                   3/25/04
                     Headquarters Complex and the Ofﬁce of Central Operations

                     Management Advisory Report: Single Audit of the State of West Virginia for
    A-77-04-00011                                                                                   3/25/04
                     the Fiscal Year Ended June 30, 2002

                     Congressional Response Report: Allegations of Mismanagement at the Falls
    A-13-04-24081                                                                                   3/26/04
                     Church, Virginia Ofﬁce of Hearings and Appeals

                     Congressional Response Report: The Social Security Administration’s
    A-13-04-24083                                                                                   3/26/04
                     Relocation of the District Ofﬁce in Jackson, Tennessee

                     Management Advisory Report: Single Audit of the State of West Virginia for
    A-77-04-00012                                                                                   3/26/04
                     the Fiscal Year Ended June 30, 2001




page 72   •     Appendices
April 1, 2004 — September 30, 2004                           SSA Ofﬁce of the Inspector General




                           Reports with Non-Monetary Findings
                         April 1, 2004 through September 30, 2004

     CIN                                            Report                                        Issue Date

                 Management Advisory Report: Single Audit of the Commonwealth of Puerto
 A-77-04-00013                                                                                        4/15/04
                 Rico Department of the Family, for the Fiscal Year Ended June 30, 2002

 A-01-04-24022   Supplemental Security Income Overpayments                                            4/16/04

                 Management Advisory Report: Review of Universities’ Issuance of Temporary
 A-08-04-24018                                                                                        4/26/04
                 Social Security Numbers to Foreign Students

                 Congressional Response Report: The Social Security Administration’s Policies
 A-13-04-24100                                                                                        5/10/04
                 and Procedures Concerning the Rural Development Act of 1972

                 The Social Security Administration’s Regional Ofﬁce Procedures for
 A-09-04-14014                                                                                        5/17/04
                 Addressing Employee-Related Allegations in Region IX
                 Congressional Response Report: Security of the Social Security
 A-14-04-24101   Administration’s National Computer Center Back-up and Recovery Tapes and             5/28/04
                 Records

                 Summary of State Disability Determination Services Administrative Cost
 A-15-03-13061                                                                                        6/18/04
                 Audits Completed in Fiscal Years 2000 through 2003

                 The Social Security Administration’s Procedures for Addressing Employee-
 A-04-04-20425                                                                                        6/22/04
                 Related Allegations in Region IV

                 The Social Security Administration’s Regional Ofﬁce Procedures for
 A-06-04-14075                                                                                        6/22/04
                 Addressing Employee-Related Allegations in Region VIII

 A-03-03-23003   Social Security Numbers with More Than One Owner                                     6/23/04

                 The Social Security Administration’s Procedures for Addressing Employee-
 A-02-04-14007                                                                                        6/24/04
                 Related Allegations in Region II

                 Creative Alternatives - An Organizational Representative Payee for the Social
 A-15-04-14033                                                                                        6/25/04
                 Security Administration

                 The Social Security Administration’s Badge-Based Personnel Access Systems
 A-14-04-24011                                                                                        7/12/04
                 for Headquarters Buildings (Limited Distribution)

                 Administrative Costs Claimed by the Massachusetts Disability Determination
 A-01-04-14032                                                                                        7/13/04
                 Services

                 Congressional Response Report: Social Security Administration Chicago
 A-07-04-24094                                                                                        7/19/04
                 Regional Ofﬁce’s Disability Determination Services Net Accuracy Rate

 A-03-03-13014   Title II Underpayments for Deceased Beneﬁciaries                                     7/21/04

                 The Social Security Administration’s Efforts to Address Its Future Workforce
 A-13-03-13064                                                                                        7/21/04
                 Needs

                 The Social Security Administration’s Monitoring of Potential Employee
 A-14-04-23004                                                                                        7/27/04
                 Systems Security Violations

                 Enumeration of Children Under Age 1: Opportunity to Reduce the Risk of
 A-08-04-14043                                                                                        7/30/04
                 Improper Social Security Number Attainment

                 Management Advisory Report: Summary of Fiscal Year 2003 Ofﬁce of the
 A-13-04-14067                                                                                        8/2/04
                 Inspector General Audits of Representative Payees




                                                                                         Appendices    •   page 73
                Semiannual Report to Congress                              April 1, 2004 — September 30, 2004




                               Reports with Non-Monetary Findings
                             April 1, 2004 through September 30, 2004

          CIN                                           Report                                   Issue Date

                     Administrative Costs Claimed by the Nevada Disability Determination
   A-09-04-14009                                                                                   8/10/04
                     Services

                     Management Advisory Report: Ofﬁce of Hearings and Appeals Case File
   A-07-04-24092                                                                                   8/13/04
                     Assembly Contracts

                     Performance Indicator Audit: Management Information Systems
   A-15-04-14071                                                                                   8/13/04
                     Development and Protection

                     The Social Security Administration’s Internal Use of Employees’ Social
   A-13-04-24046                                                                                   8/19/04
                     Security Numbers

   A-15-04-14069     Performance Indicator Audit: Earnings Suspense File                           8/20/04


   A-01-04-24023     Overpayments in the Old-Age, Survivors and Disability Insurance Program       8/26/04

                     The Social Security Administration’s Procedures for Addressing Employee-
   A-05-04-14086                                                                                   8/30/04
                     Related Allegations in Region V

   A-07-03-13054     Disability Determination Services’ Claims Processing Performance              8/30/04

                     Field Ofﬁces’ Compliance with Policies and Procedures When Processing
   A-08-04-14005                                                                                   8/30/04
                     Noncitizen Social Security Number Applications

                     Compliance with Policies and Procedures When Processing Noncitizen Social
   A-08-04-14060                                                                                   8/30/04
                     Security Number Applications at Foreign Service Posts

                     Brooklyn Social Security Card Center’s Compliance with Policies and
   A-08-04-14061                                                                                   8/30/04
                     Procedures When Processing Noncitizen Social Security Number Applications

   A-12-04-14020     Best Practices in the Highest Producing Hearing Ofﬁces                        8/31/04

                     Management Advisory Report: Summary of Single Audit Oversight Activities
   A-07-04-14063                                                                                   9/3/04
                     May 2003 through April 2004

                     Performance Indicator Audit: President’s Management Agenda Related
   A-15-04-14070                                                                                   9/3/04
                     Initiatives

   A-14-04-15005     Evaluation of the Accelerated eDib System - Sixth Assessment                  9/10/04

                     The Impact on Network Security of the Social Security Administration’s
   A-14-04-24019                                                                                   9/17/04
                     Operating Systems’ Conversions

   A-02-04-14068     Performance Indicator Audit: Employment for Disabled Beneﬁciaries             9/20/04

                     Administrative Costs Claimed by the Minnesota Disability Determination
   A-05-04-14036                                                                                   9/21/04
                     Services




page 74    •    Appendices
April 1, 2004 — September 30, 2004                           SSA Ofﬁce of the Inspector General




                           Reports with Non-Monetary Findings
                         April 1, 2004 through September 30, 2004

     CIN                                            Report                                       Issue Date

                 The Social Security Administration’s Regional Ofﬁce Procedures for
 A-03-04-14044                                                                                      9/23/04
                 Addressing Employee-Related Allegations in Region III

                 Mental Health Center of Boulder County, Inc. - An Organizational
 A-06-04-14038                                                                                      9/29/04
                 Representative Payee for the Social Security Administration

                 Congressional Response Report: Survey of Educational Institutions’ Issuance
 A-08-04-24102                                                                                      9/30/04
                 of Work Authorization Documents to Foreign Students

                 Fiscal Year 2004 Evaluation of the Social Security Administration’s
 A-14-04-14040                                                                                      9/30/04
                 Compliance with the Federal Information Security Management Act




                               Reports with Questioned Costs
                           October 1, 2003 through March 31, 2004

     CIN          Issue Date                                 Report                             Dollar Amount

                                   Administrative Costs Claimed by the New Mexico Disability
 A-06-03-13016      10/2/03                                                                           $33,495
                                   Determination Services
                                   San Francisco Department of Human Services – An
 A-09-03-13011      11/19/03       Organizational Representative Payee for the Social                $179,831
                                   Security Administration
                                   Impact on the Social Security Administration’s Programs
 A-01-03-33020      11/26/03       When Auxiliary Beneﬁciaries Have Incorrect Social              $1,172,288
                                   Security Numbers
                                   Indirect Costs Claimed by the West Virginia Disability
 A-07-03-23072      12/4/03                                                                          $101,815
                                   Determination Services

                                   Administrative Costs Claimed by the Colorado Disability
 A-15-03-13044      12/11/03                                                                      $2,683,614
                                   Determination Services

                                   Administrative Costs Claimed by the Georgia Disability
 A-15-01-11021       2/6/04                                                                       $4,227,701
                                   Adjudication Services

 A-02-03-23080      2/18/04        Social Security Funds Held in Dormant Bank Accounts            $1,145,893

                                   Management Advisory Report: Consulting and Professional
 A-77-04-00009       3/5/04        Service Costs Claimed by Kansas Advocacy and Protective               $5,188
                                   Services Incorporated
                                   Administrative Costs Claimed by the Texas Disability
 A-15-02-12051      3/11/04                                                                       $3,971,193
                                   Determination Services

                                                                                       Total:   $13,521,018




                                                                                       Appendices    •    page 75
                Semiannual Report to Congress                           April 1, 2004 — September 30, 2004




                                   Reports with Questioned Costs
                             April 1, 2004 through September 30, 2004

          CIN         Issue Date                              Report                              Dollar Amount

                                    Administrative Costs Claimed by the Michigan Disability
    A-05-03-13036       5/7/04                                                                       $1,354,485
                                    Determination Services

                                    Disabled Title II Beneﬁciaries with Earnings Reported on
    A-01-03-13019       7/12/04                                                                   $1,365,957,300
                                    the Master Earnings File

                                    Administrative Costs Claimed by the Montana Disability
    A-07-04-14016       7/16/04                                                                          $4,128
                                    Determinations Services

                                    The Social Security Administration’s Prisoner Incentive
    A-01-04-24067       7/30/04                                                                     $18,970,524
                                    Payment Program

                                    Payments to Student Beneﬁciaries Beyond the Maximum
    A-09-04-14050       8/13/04                                                                      $5,914,370
                                    Age of Entitlement

                                    Administrative Costs Claimed by the District of Columbia
    A-15-04-14052       8/13/04                                                                         $13,683
                                    Disability Determination Division

                                    Indirect Costs Claimed by the Connecticut Disability
    A-15-03-23041       9/7/04                                                                         $287,442
                                    Determination Services

                                    New York State Disability Determination Program Indirect
    A-02-04-24017       9/13/04                                                                      $5,240,845
                                    Costs

    A-01-04-24078       9/16/04     Individuals Receiving Multiple Childhood Disability Beneﬁts        $218,050

                                    The Effectiveness of Policies and Procedures Used to
    A-02-04-14031       9/16/04                                                                     $89,300,000
                                    Identify Incarcerated Representative Payees

                  Total Questioned Costs for April 1, 2004 through September 30, 2004:            $1,487,260,827


                                           Total Questioned Costs for Fiscal Year 2004:           $1,500,781,845




page 76    •    Appendices
April 1, 2004 — September 30, 2004                      SSA Ofﬁce of the Inspector General




                         Reports with Funds Put to Better Use
                        October 1, 2003 through March 31, 2004

     CIN         Issue Date                              Report                             Dollar Amount

                               Administrative Costs Claimed by the New Mexico Disability
 A-06-03-13016     10/2/03                                                                     $1,660,004
                               Determination Services

 A-02-03-13032     10/6/03     Suitability of Individuals Acting as Representative Payees      $7,630,392

                               Administrative Costs Claimed by the Georgia Disability
 A-15-01-11021     2/6/04                                                                         $209,861
                               Adjudication Services

 A-07-04-20426     2/18/04     Inventory Review at the National Records Center                     $34,563

                               Social Security Administration Controls over the Taxation
 A-14-03-23005     3/3/04                                                                    $108,400,000
                               and Suspension of Payments to Foreign Beneﬁciaries

                                                                                  Total:    $117,934,820




                         Reports with Funds Put to Better Use
                       April 1, 2004 through September 30, 2004

     CIN         Issue Date                             Report                              Dollar Amount

                               Administrative Costs Claimed by the Michigan Disability
 A-05-03-13036     5/7/04                                                                      $2,700,000
                               Determination Services

                               The Social Security Administration’s Representative
 A-01-04-14008    5/21/04                                                                    $341,969,487
                               Payee Selection Process

                               Administrative Costs Claimed by the Wyoming Disability
 A-07-04-14051    7/16/04                                                                          $20,453
                               Determinations Services
                               Collection of Old-Age, Survivors and Disability Insurance
 A-13-03-13049    7/21/04      Overpayments to Representative Payees for Deceased              $2,278,241
                               Beneﬁciaries
                               Puerto Rico Disability Determination Program Indirect
 A-06-04-34035     9/16/04                                                                        $780,330
                               Cost Review

     Total Funds Put to Better Use for April 1, 2004 through September 30, 2004:            $347,748,511


                              Total Funds Put to Better Use for Fiscal Year 2004:           $465,683,331




                                                                                     Appendices   •   page 77
               Semiannual Report to Congress                  April 1, 2004 — September 30, 2004




  Appendix C

  Reporting Requirements Under the Omnibus Consolidated
  Appropriations Act for Fiscal Year 1997
  To meet the requirements of the Omnibus Consolidated Appropriations Act for 1997,
  P.L. 104-208, we are providing requisite data for ﬁscal year (FY) 2004 from the
  Ofﬁces of Investigations and Audit in this report.


  Ofﬁce of Investigations
  We are reporting $25.6 million in funds collected as a result of our investigative activities
  in this reporting period. These funds are broken down in the table below.

                                        Investigative Activities


                     1st Quarter       2nd Quarter    3rd Quarter    4th Quarter         Total

   Court
   Ordered             $5,730,230        $6,345,622     $6,611,154     $5,622,646     $24,309,652
   Restitution
   Scheduled
                       $9,652,904       $10,391,820     $6,778,985     $5,882,944     $32,706,653
   Recoveries

   Fines                    $175,754      $139,763       $201,495         $53,839        $570,851

   Settlements/
                            $510,668       $76,841       $294,742        $227,870      $1,110,121
   Judgments

   TOTALS            $16,069,556       $16,954,046    $13,866,376    $11,787,299     $58,697,277



  Ofﬁce of Audit
  SSA management has informed us that it has completed implementing recommendations
  from 7 audit reports during this time period valued at over $211 million.

  Suitability of Individuals Acting as Representative Payees (A-02-03-13032,
  10/6/03)

  We recommended that SSA identify and correct all current cases of beneﬁciaries with
  Representative Payees who serve as Payees. The implemented recommendation is valued
  at over $7.6 million.



page 78    •   Appendices
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General




Administrative Costs Claimed by the New Mexico Disability Determination Services
(NM DDS) (A-06-03-13016, 10/2/03)

We recommended that SSA use standardized consultative examination (CE) fee schedules
that consider the limits set by Federal regulations and monitor the adequacy of CE fees as
required by the Program Operations Manual System. The State paid CEs in excess of Medicare
rates for a projected $467,035 for FY 2000 and $245,781 for FY 2001. The implemented
recommendation is valued at $712,816.

We also recommended that SSA review unliquidated obligations at least once a month to
cancel those no longer valid. The reviews should be conducted until all unliquidated obligations
are resolved and the grant is closed. The NM DDS carried unliquidated obligations totaling
$234,545, $135,933, and $175,446 for FYs 1999, 2000, and 2001 respectively that were not
needed for program operations. The implemented recommendation is valued at $545,924.

Finally, we recommended that SSA reduce the Automated Standard Application for Payments
funding authority by $94,386 for FY 1999, $138,282 for FY 2000, and $168,596 for FY 2001.
The implemented recommendation is valued at $401,264.

Administrative Costs Claimed by the Hawaii Disability Determination Services
(HI DDS) (A-09-03-13012, 9/4/03)

We recommended that SSA ensure HI DDS improves the methods used to record unliquidated
obligations for medical costs so that future estimates more accurately reﬂect the amounts
needed for valid expenditures. The implemented recommendation is valued at $218,069.

Administrative Costs Claimed by the Illinois Bureau of Disability Determination
Services (A-05-02-22019, 8/18/03)

We recommended that SSA improve its oversight of consultative examination fees and limit
future payments to the highest rate allowable by Federal or other State agencies in Illinois.
The implemented recommendation is valued at over $1.2 million.

Pending Workers’ Compensation (WC): SSA Can Prevent Millions in Title II
Disability Overpayments (A-08-02-12064, 6/6/03)
We recommended that SSA take steps to reduce its backlog of title II disability cases having
pending WC issues. The implemented recommendation is valued at over $120.8 million.

SSA’s Processing of Internal Revenue Service (IRS) Overstated Wage Referrals
(A-03-02-22068, 3/18/03)

We recommended that SSA begin processing IRS referrals, starting with the referrals that are
most likely to:

  • Reduce overpayments, such as those related to individuals closer to retirement age.



                                                                         Appendices     •   page 79
              Semiannual Report to Congress                  April 1, 2004 — September 30, 2004




    • Minimize identity theft, such as those with higher disputed wages over multiple tax years.

  The implemented recommendation is valued at over $41 million.

  Old-Age, Survivors and Disability Insurance (OASDI) Beneﬁts Paid to Fugitives
  (A-01-00-10014, 8/29/00)
  We recommend that SSA pursue legislation prohibiting payment of OASDI beneﬁts to fugitives
  similar to the provisions pertaining to Supplemental Security Income (SSI) payments under
  P. L. 104-193. The implemented recommendation is valued at over $39 million.




page 80   •   Appendices
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General




Appendix D

Collections From Investigations and Audits
The Omnibus Consolidated Appropriations Act for 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a
result of Inspector General activities each semiannual period.


Ofﬁce of Investigations

             Total Restitution Reported by the Department of Justice
                as Collected for the Social Security Administration

                   Total Number
                                              Court Ordered
   Fiscal         of Individuals                                     Total Restitution
                                                Restitution
   Year           Assigned Court                                     Collected by DOJ
                                              for This Period
                Ordered Restitution

     2002                             600             $18,068,423               $2,643,872


     2003                             567             $22,354,434               $2,184,770

     2004                             700             $24,309,652               $2,307,487


   TOTALS                        1,867               $64,732,509               $7,136,129




                 Funds Received by the Ofﬁce of Investigations
                          Based on Recovery Actions

                                                                      Actual Amount
                  Total Number of
    Fiscal                                   Amount Scheduled          Recovered at
                  Recovery Actions
    Year                                       for Recovery          the Close of the
                      Initiated
                                                                      Investigation

     2002                            2,202             $29,434,025             $8,765,025


     2003                            2,442             $31,515,050             $9,025,423


     2004                            1,861             $32,706,653            $10,628,472


   TOTALS                            6,505           $93,655,728             $28,418,920




                                                                          Appendices     •   page 81
                 Semiannual Report to Congress                            April 1, 2004 — September 30, 2004




  Ofﬁce of Audit
  The following chart summarizes the Agency’s responses to our recommendations
  for the recovery or redirection of questioned and unsupported costs. This information
  is prepared in coordination with the Agency’s management ofﬁcials and is current
  as of September 30, 2004.




                    Responses to OIG’s Recommendations for the Recovery or
                        Redirection of Questioned and Unsupported Costs

                Number of
                               Questioned/                         Amount            Amount
               Reports with                    Management
     FY                        Unsupported                    Collected or to be   Written-Off/      Balance
               Questioned                      Concurrence
                                  Costs                           Recovered        Adjustments
                  Costs


    2002           13           $15,551,282      $7,515,730        $8,276,020        $8,041,929                $0


    2003           18           $56,602,321     $53,002,556      $21,575,579         $3,100,326     $32,005,083


    2004           19         $1,500,781,845    $17,365,406        $8,315,345        $5,026,681   $1,487,478,103


   TOTALS          50         $1,572,935,448   $77,883,692      $38,166,944        $16,168,936 $1,519,483,186




page 82    •    Appendices
April 1, 2004 — September 30, 2004           SSA Ofﬁce of the Inspector General




Appendix E

Signiﬁcant Monetary Recommendations From Prior
Fiscal Years for Which Corrective Actions Have Not Been
Completed
There are no signiﬁcant monetary recommendations from prior FYs for which corrective
actions have not been completed.




                                                                   Appendices     •   page 83
              Semiannual Report to Congress                  April 1, 2004 — September 30, 2004




  Appendix F

  Signiﬁcant Non-Monetary Recommendations From Prior
  Fiscal Years for Which Corrective Actions Have Not Been
  Completed

  SSA’s Management of Congressional Inquiries (A-13-02-12011, 9/23/02)

  Recommendation: We recommended that SSA develop and implement an Agency-wide
  information system that incorporates current technology to control, monitor, and track
  all congressional inquiries.

  Agency Response: SSA agreed with the recommendation.

  Corrective Action: The project is being implemented in a phased approach. Phase 1,
  Assignment and Correspondence Tracking Release 1.0, is the replacement of the current
  Commissioner’s Correspondence System. Vendor customization has been completed. The
  development process has entered the Integration Phase of the systems life cycle. This will be
  followed by the Training and Production Phase at which point a “Production Pilot” will begin
  and continue for 8 to 12 weeks. The pilot is scheduled to being in the December/January 2005
  time frame.

  Additionally, classroom training for the Application Administrators began in September and
  will continue through the end of calendar year 2004. Deployment will begin at the end of
  the production pilot in a phased rollout. End user training will be given 1 week prior to
  each of the components’ implementation date. The anticipated phase 1 completion date is
  September 2005.

  Impact on the Social Security Administration’s Programs When Auxiliary
  Beneﬁciaries Do Not Have Their Own Social Security Numbers (SSN)
  (A-01-02-22006, 9/20/02)
  Recommendation: We recommended that SSA generate reports of auxiliary beneﬁciaries with
  missing Beneﬁciary’s Own Account Number (BOAN) alerts that have not been cleared timely
  to a higher level of management.

  Agency Response: SSA agreed with the recommendation.

  Corrective Action: The reports will require systems programming. The Ofﬁce of Operations
  has submitted an Information Technology (IT) template to the Ofﬁce of Systems (DCS) to
  track the volume of missing BOAN alerts by region and ﬁeld ofﬁce. On April 9, 2003, the
  Ofﬁces of Operations and Systems met to discuss the planning and analysis for the template
  that will be used to implement this recommendation. On October 23, 2003, DCS submitted a
  Project Scope Agreement for Associate Commissioner signoff, which was approved by all
  components in December 2003.


page 84   •   Appendices
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General




Effective October 2004, a ﬁle with data on BOAN alerts sorted by ﬁeld ofﬁce and regional
jurisdiction will be available to ﬁeld ofﬁces and regional ofﬁces. This will allow managers to
monitor the BOAN alert processing.

SSA Can Recover Millions in Medicare Premiums Related to Retirement or Disability
Payments Made after Death (A-08-02-12029, 7/3/02)

Recommendation: We recommended that SSA establish a committee with Center for Medicare
and Medicaid Services (CMS) ofﬁcials to discuss procedures and practices for recovering
Medicare premiums and work toward a joint resolution of the issue.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Ofﬁce of Disability and Income Security Programs (ODISP) chaired an
interagency videoconference in November 2002 with CMS executives and staff to discuss the
OIG report and recommendations. SSA executives and staff were present at that meeting
from the Ofﬁce of Finance, Assessment and Management (DCFAM), DCS and the Ofﬁce of the
Actuary (OACT).

In July 2003, SSA and CMS staff met to discuss the methodology used by SSA to develop
an estimate for the period 1966-2002. On October 31, 2003, SSA released letters to the
Departments of Health and Human Services and the Treasury identifying the issue and SSA’s
intent to disclose the debt as a footnote on the FY 2003 ﬁnancial statements, along with the
intention of collecting the debt during FY 2004.

Recommendation: We recommended that if the transfer of unrecovered Medicare premiums is
determined to be practical and feasible, SSA should establish an accounts receivable amount
due from CMS for premiums remitted after beneﬁciaries’ deaths. The amount should include
premiums already remitted to CMS and those SSA may continue to remit after beneﬁciaries’
deaths until a system is in place to prevent such occurrences.

Agency Response: SSA agreed with the recommendation.

Corrective Action: Systems changes, put in place January 2003, are identifying current
unrecovered premium amounts which are netted against amounts transferred to CMS as
current Supplemental Medical Insurance premiums. Further action on this recommendation
is expected to be addressed.

Work Activity for SSNs Assigned for Nonwork Purposes in the State of Utah
(A-14-01-11048, 3/29/02)

Recommendation: We recommended that SSA work with Immigration and Naturalization
Service (INS), now incorporated into the Department of Homeland Security (DHS), to resolve
data compatibility problems associated with the nonwork earnings ﬁle provided by SSA and
involve employees familiar with the problem.

Agency Response: SSA agreed with the recommendation.



                                                                        Appendices     •   page 85
              Semiannual Report to Congress                     April 1, 2004 — September 30, 2004




  Corrective Action: Under the direction of the Enumeration Response Team, a subgroup is
  currently working on a proposal to expand the SSN electronic audit trail to capture information
  that could also be useful in resolving data compatibility problems between SSA and DHS.
  At this time, no milestone activities have been determined.

  Recommendation: We recommended that SSA work to establish an agreement with the Ofﬁce
  of Child Support Enforcement (OCSE) whereby SSA submits nonwork SSN records to OCSE
  each quarter, and OCSE associates quarterly earnings with the records before returning them
  to SSA.

  Agency Response: SSA believes this recommendation may have merit.

  Corrective Action: SSA no longer issues an SSN solely for the purpose of securing a driver’s
  license or motor vehicle registration. This policy change closes opportunities for illegal work.
  In addition, SSA is continuing to work with U.S. Citizenship and Immigration Service (USCIS)
  on a number of fronts to improve the enumeration process. Once SSA has assessed the
  impact of these activities, SSA will revisit this recommendation and determine how to best
  proceed within the constraints of SSA’s disclosure/privacy regulations and policies on working
  with and sharing information with OCSE and USCIS for the purposes of identifying persons
  who work illegally and employers who hire such persons.

  Recommendation: We recommended that SSA use the quarterly wage information or other
  suitable methods to prevent the issuance of replacement Social Security cards when there is
  evidence of illegal employment and to advise employers of non-work status when verifying
  employee SSNs.

  Agency Response: SSA agreed that there should be tighter controls for issuing replacement
  cards to aliens who are not authorized to work.

  Corrective Action: SSA will investigate the best method for doing that, including the possibility
  of issuing revised instructions and reminders on the policy on issuing replacement cards and
  on updating Numident records. SSA will also explore appropriate mechanisms for helping
  BCIS monitor employment authorization.

  We recommend that SSA match the quarterly non-work earnings ﬁle with the ESF to identify
  and report to DHS employers who consistently hire people who are not authorized for
  employment and individuals who use, for employment, nonwork SSNs and false identities.

  Agency Response: SSA believes this recommendation may have merit.

  Corrective Action: SSA will revisit this recommendation once an assessment of the impact of
  previously referenced activities that are underway or planned is complete.




page 86   •   Appendices
April 1, 2004 — September 30, 2004                 SSA Ofﬁce of the Inspector General




Performance Measure Review: Reliability of the Data Used to Measure the Timely
Processing of Disability Insurance Claims (A-02-99-11001, 10/2/01)

Recommendation: We recommended that SSA provide an adequate audit trail to document
the processes involved in the generation and accumulation of the performance measure.

Agency Response: SSA agreed with the recommendation.

Corrective Action: DCS is addressing this issue as it transitions the Management Information
Initial Claims Record (MIICR) functionality to the Title II Workload Management Information
System. A General Project Scope Agreement was agreed upon.

There are three releases of the Title II Transition Project: Release 1.0, implemented October
2003, focused on capturing workload counts for Title II Initial Claims and Appeals from the
Title II Operational Data Store (ODS); Release 2.0, implemented February 2004, focused on
providing Title II workload information to the Processing Centers from the Title II ODS; and
Release 3.0 focuses on populating the Work Measurement Data Warehouse with Title II Initial
Claims completion information from the Title II ODS for processing time and performance
measures reporting. This release replaces the last piece of MIICR still in use. It is scheduled
for implementation in March 2005.

Audit of Enumeration at Birth Program (A-08-00-10047, 9/27/01)

Recommendation: We recommended that SSA re-invest some of the savings realized by the
Enumeration at Birth (EAB) program. This could provide necessary funding, during future
contract modiﬁcations, for the Bureaus of Vital Statistics to perform periodic, independent
reconciliations of registered births with statistics obtained from hospitals’ labor and delivery
units, and periodically verify the legitimacy of sample birth records obtained from hospitals.

Agency Response: SSA agreed in principle with the recommendation.

Corrective Action: On March 31, 2003, SSA met with the National Association for Public Health
Statistics and Information System (NAPHSIS). NAPHSIS wants SSA to develop the complete
audit plan for them including a complete statistically valid sampling plan based on the number
of birthing hospitals in each State. Once the plan is developed, NAPHSIS would like SSA to tap
into other sources for funding a full audit program in each State.

On June 17, 2003, an IT template was prepared for the EAB audit provisions. This plan
must be approved and submitted for DCS review. SSA developed the complete audit plan
at NAPHSIS’ request to include a statistically valid sampling method based on the number
of birthing hospitals in each State. DCO has shared the concept of this plan with NAPHSIS
executives. NAPHSIS advised that SSA should drop the search for additional Federal funds
since these were available on a State basis only. DCO recently submitted another IT plan
for consideration and no decisions have been made to implement these plans at this time.
NAPHSIS advised that SSA should drop the search for additional Federal funds since these
were available on a State basis only.



                                                                         Appendices     •   page 87
              Semiannual Report to Congress                   April 1, 2004 — September 30, 2004




  This plan was submitted for System’s review and was only ranked as medium priority. The
  medium priority ranking kept this plan from being developed and initiated in FY 2004.
  Discussions still continue between SSA and NAPHSIS to ﬁne tune some of the plan’s
  suggestions.

  Recommendation: We recommended that SSA enhance its duplicate record detection and
  prior SSN detection routines to provide greater protection against the assignment of multiple
  SSNs.

  Agency Response: SSA agreed on the issue of duplicate record detection. SSA also agreed
  that there are cases where a subsequent SSN application is not identiﬁed due to minor
  changes in names.

  Corrective Action: For EAB cases, the duplicate record detection routine currently considers
  two SSN applications to be duplicate only if the required data ﬁelds match exactly, including
  birth certiﬁcate numbers. For example, if the birth certiﬁcate numbers for two records are
  different, the records are not treated as possible duplicates even if the other data ﬁelds are
  identical. Agreement has been reached to have the routine consider two SSN applications
  to be duplicate if all of the required data ﬁelds match exactly, even if the birth certiﬁcate
  numbers are different. The Ofﬁce of Operations and DCS recently met on the IT plans and no
  decisions were made to implement the plans at this time.

  For non-EAB cases, DCS staff met and discussed this recommendation and determined it would
  be possible to modify the automated enumeration screening process to detect variations in
  the spelling of applicant names. However, while this would provide greater protection against
  the assignment of multiple SSNs, there would be undesirable consequences. It would create
  delays in the processing of multiple birth cases. The envisioned routine would catch some,
  but not all, of the 93 multiple SSN examples we cited. The ﬁndings have been shared with the
  user community.

  Payments Made to Selected Representative Payees after the Deaths of Social
  Security Beneﬁciaries (A-13-01-21028, 9/18/01)

  Recommendation: We recommended that SSA resolve beneﬁciary date-of-death discrepancies
  we identiﬁed and develop and implement procedures for the timely and accurate recordation
  of dates of death.

  Agency Response: SSA has already begun to correct the records containing date of death
  discrepancies.

  Corrective Action: SSA has already begun to correct the records containing date of death
  discrepancies and will review the procedures to prevent future occurrences of this nature. In
  addition, a new Death Alert, Control and Update System (DACUS) process, which will identify
  deceased representative payees in the Representative Payee System, will be implemented in
  the DACUS Release II, which is not yet scheduled due to other systems priorities.




page 88   •   Appendices
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General




Approval of Claimant Representatives and Fees Paid to Attorneys
(A-12-00-10027, 8/21/01)

Recommendation: We recommended that SSA collect each attorney’s SSN, name and address
information so IRS Form 1099 can be issued to attorneys.

Agency Response: SSA’s Executive Task Force is addressing the issue of providing IRS Form
1099 to attorneys and is developing a business process for issuing these forms.

Corrective Action: The Executive Task Force has established a target of issuing Form 1099
to attorneys in January 2005 (representing attorneys fees received during tax year 2004).
DCS is currently conducting planning and analysis sessions to plan and develop systems
enhancements necessary to collect the appropriate attorney data and issue the Form 1099.

Audit of SSA’s FY 2001 APP (A-02-00-10038, 6/18/01)

Recommendation: We recommended that SSA coordinate with the CMS to determine which
Agency should establish performance goals for service to Medicare recipients.

Agency Response: SSA will explore the feasibility of establishing such a goal.

Corrective Action: The Deputy Commissioners for Disability and Income Security Programs;
Finance, Assessment and Management; and Operations met on the development of a possible
Government Performance Results Act (GPRA) performance measure on service to Medicare
recipients for the 2005/2006 Annual Performance Plan (APP). The September APP submission
to the Ofﬁce of Management and Budget contained a placeholder for this measure, which
is still under development pending ﬁnal decisions on how the Medicare legislation will be
enacted in SSA.




                                                                        Appendices     •   page 89
              Semiannual Report to Congress               April 1, 2004 — September 30, 2004




  Appendix G

  Signiﬁcant Management Decisions With Which
  the Inspector General Disagrees
  There are no signiﬁcant management decisions with which the Inspector General disagrees.




page 90   •   Appendices
April 1, 2004 — September 30, 2004                SSA Ofﬁce of the Inspector General




Appendix H

Reporting Requirements
This report meets the requirements of the Inspector General Act of 1978, as amended, and
includes information mandated by Congress.

      Section                              Requirement                                 Pages


 Section 4(a)(2)       Review of legislation and regulations                            N/A


 Section 5(a)(1)       Signiﬁcant problems, abuses, and deﬁciencies                    3-64


 Section 5(a)(2)       Recommendations with respect to signiﬁcant
                                                                                       3-64
                       problems, abuses, and deﬁciencies

 Section 5(a)(3)       Recommendations described in previous Semiannual          Appendices
                       Reports on which corrective actions are incomplete          E&F

 Section 5(a)(4)       Matters referred to prospective authorities and the
                                                                                       3-64
                       prosecutions and convictions which have resulted

 Sections 5(a)(5) &
                       Summary of instances where information was refused               N/A
 Section 6(b)(2)


 Section 5(a)(6)       List of audits                                            Appendix B


 Section 5(a)(7)       Summary of particularly signiﬁcant reports                      20-64


                       Table showing the total number of audit reports and
 Section 5(a)(8)                                                                 Appendix A
                       total dollar value of questioned costs

                       Table showing the total number of audit reports and
 Section 5(a)(9)                                                                 Appendix A
                       total dollar value of funds put to better use

                       Audit recommendations more than 6 months old for
 Section 5(a)(10)                                                                Appendix A
                       which no management decision has been made

                       Signiﬁcant management decisions that were revised
 Section 5(a)(11)                                                                       N/A
                       during the reporting period

                       Signiﬁcant management decisions with which the
 Section 5(a)(12)                                                                Appendix G
                       Inspector General disagrees



                                                                        Appendices      •   page 91
              Semiannual Report to Congress                      April 1, 2004 — September 30, 2004



  Appendix I

  Glossary


          Abbreviation                                     Deﬁnition

   ALJ                          Administrative Law Judge
   BOAN                         Beneﬁciary’s Own Account Number
   BSSCC                        Brooklyn Social Security Card Center
   BTS                          Beneﬁt Team Services
   C&A                          Certiﬁcation and Accreditation
   CA                           Creative Alternatives
   CDI                          Cooperative Disability Investigations
   CDR                          Continuing Disability Review
   CE                           Consultative Examination
   CFO Act                      Chief Financial Ofﬁcers Act of 1990
   CIA                          Central Intelligence Agency
   CMIA                         Cash Management Improvement Act
   CMP                          Civil Monetary Penalty
   CMS                          Center for Medicare and Medicaid Services
   CY                           Calendar Year
   DCFAM                        Ofﬁce of Finance, Assessment and Management
   DCS                          Ofﬁce of Systems
   DDS                          (State) Disability Determination Services
   DI                           Disability Insurance
   DHS                          Department of Homeland Security
   DOJ                          Department of Justice
   DOL                          Department of Labor
   DOS                          Department of State
   EAB                          Enumeration at Birth
   eGovernment                  electronic Government
   ERT                          Enumeration Response Team




page 92   •   Appendices
April 1, 2004 — September 30, 2004                  SSA Ofﬁce of the Inspector General




 ESF                         Earnings Suspense File
 FBI                         Federal Bureau of Investigation
 FISMA                       Federal Information Security Management Act of 2002
 FO                          Field Ofﬁce
 FSP                         Foreign Service Post
 FY                          Fiscal Year
 GAO                         Government Accountability Ofﬁce
 GPRA                        Government Performance and Results Act
 ICE                         Immigration and Customs Enforcement (DHS)
 IDHS                        Illinois Department of Human Services
 IG                          Inspector General
 INS                         Immigration and Naturalization Service
 IRS                         Internal Revenue Service
 IT                          Information Technology
 MEF                         Master Earnings File
 MES                         Modernized Enumeration System
 MHCBC                       Mental Health Center of Boulder County, Inc.
 MIICR                       Management Information Initial Claims Record
 NAPHSIS                     Nat. Assn. for Public Health Statistics and Information System
 NCC                         National Computer Center
 MIICR                       Management Information Initial Claims Record
 OA                          Ofﬁce of Audit
 OACT                        Ofﬁce of the Actuary
 OASDI                       Old-Age, Survivors and Disability Insurance
 OASI                        Old-Age and Survivors Insurance
 OCCIG                       Ofﬁce of the Chief Counsel to the Inspector General
 OCSE                        Ofﬁce of Child Support Enforcement
 ODISP                       Ofﬁce of Disability and Income Security Programs
 ODP                         Ofﬁce of Disclosure Policy
 ODS                         Operational Data Store
 OEO                         Ofﬁce of Executive Operations
 OHA                         Ofﬁce of Hearings and Appeals




                                                                          Appendices     •   page 93
               Semiannual Report to Congress                      April 1, 2004 — September 30, 2004




   OI                            Ofﬁce of Investigations
   OIG                           Ofﬁce of the Inspector General
   OMB                           Ofﬁce of Management and Budget
   P.L.                          Public Law
   PMA                           President’s Management Agenda
   PwC                           PricewaterhouseCoopers, LLP
   RO                            Regional Ofﬁce
   RPS                           Representative Payee System
   SAUSA                         Special Assistant United States Attorney
   SGA                           Substantial Gainful Activity
   SOR                           Claims Folders System of Records
   SSA                           Social Security Administration
   SSI                           Supplemental Security Income
   SSN                           Social Security Number
   Title II                      Old-Age, Survivors and Disability Insurance
   Title XVI                     Supplemental Security Income
   Treasury                      Department of the Treasury
   USCIS                         U.S. Citizenship and Immigration Service
   USMS                          United States Marshals Service
   USPIS                         U.S. Postal Inspection Service
   USPS                          U.S. Postal Service
   VA                            Department of Veterans Affairs
   WC                            Workers’ Compensation




page 94   •    Appendices
                                                                                            Report Fraud
 Office of the Inspector General                                         The SSA OIG Fraud Hotline offers a means for you to provide
                                                                        information on suspected fraud, waste, and abuse. If you know of
Mission Statement                                                         current or potentially illegal or improper activities involving
By conducting independent and objective audits, evaluations, and          SSA programs or personnel, we encourage you to contact the
investigations, we improve the SSA programs and operations and                               SSA OIG Fraud Hotline.
protect them against fraud, waste, and abuse. We provide timely,
useful, and reliable information and advice to Administration
officials, Congress, and the public.
                                                                       Call              1-800-269-0271
                                                                       Write             Social Security Administration
                                                                                         Office of the Inspector General
Vision and Values                                                                        Attention: SSA Fraud Hotline
We are agents of positive change striving for continuous                                 P. O. Box 17768
improvement in SSA’s programs, operations, and management by                             Baltimore, MD 21235
proactively seeking new ways to prevent and deter fraud, waste, and
abuse. We are committed to integrity and to achieving excellence by    Fax               410-597-0118
supporting an environment that encourages employee development
and retention, and fosters diversity and innovation, while providing   Internet       www.socialsecurity.gov/oig
a valuable public service.

                                                                       To obtain additional copies of this report, visit our website,
                                                                                      www.socialsecurity.gov/oig
                                                                                         or call 410-965-3218
                                    Semiannual Report to Congress
                                   The Realities We Face:
                                  Continuity Amid Change
                                       April 1, 2004 thru September 30, 2004




www.socialsecurity.gov/oig
      SSA OIG Pub. No. 85-007
      Published November 2004   Social Security Administration - Office of the Inspector General
